<html>
<title> - DEPARTMENT OF HOMELAND SECURITY: AN EXAMINATION OF ETHICAL STANDARDS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                        DEPARTMENT OF HOMELAND SECURITY: 
                      AN EXAMINATION OF ETHICAL STANDARDS

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,

                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2012


                               __________

                           Serial No. 112-92

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
78-152                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6

                               Witnesses

Mr. Charles K. Edwards, Acting Inspector General, Department of 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Thomas S. Winkowski, Acting Deputy Commissioner, Customs and 
  Border Protection, Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. James G. Duncan, Assistant Administrator, Office of 
  Professional Responsibility, Transportation Security 
  Administration, Department of Homeland Security:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Timothy M. Moynihan, Assistant Director, Office of 
  Professional Responsibility, Immigration and Customs 
  Enforcement, Department of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23


  DEPARTMENT OF HOMELAND SECURITY: AN EXAMINATION OF ETHICAL STANDARDS

                              ----------                              


                         Thursday, May 17, 2012

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:34 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Marino, Keating, and 
Clarke.
    Mr. McCaul. The committee will come to order.
    The purpose of this hearing is to examine the ethical 
policies, conduct, and alleged criminal activities within the 
Department of Homeland Security.
    I now recognize myself for an opening statement.
    May 6 through the 12 was Public Recognition Week. We set 
aside time each year to honor our public servants who keep us 
safe, care for our veterans, control our borders, and find 
cures for rare diseases. They make our country stronger and 
make a difference in the world.
    Most of our employees understand that public service is a 
public trust. Each one has a responsibility to the United 
States Government and the citizens they all serve to place 
loyalty to the Constitution, laws, and ethical principles above 
private gain. Most public servants adhere to this trust.
    However, the Pew Research Center interviewed more than 
3,000 adults about their views of our Government. Fifty-four 
percent said the Federal Government is mostly corrupt while 31 
percent said mostly honest and 11 percent said they don't know 
either.
    The survey also showed just a third of Americans has a 
favorable opinion of the Federal Government: The lowest 
positive rating in its 15 years.
    A measure of dissatisfaction these days is to be expected. 
The country is in economic trouble and our leaders promise 
things they cannot deliver. What compounds this dissatisfaction 
are Government scandals.
    There have been many reports of Federal employees wasting 
taxpayer dollars and in some cases, committing crimes which 
erodes the trust American people put in our Government.
    The General Services Administration employees spent over 
$800,000 on a conference in Las Vegas. The Department of 
Homeland Security spent nearly $1 billion on the Secure Border 
Initiative Network with little return on this investment.
    We have also found criminal activity within our 
bureaucracies. Custom and Border Protection personnel 
collaborating with drug smugglers, cartels, Immigration and 
Custom Enforcement personnel filing fraudulent travel claims, 
and TSA personnel stealing personal belongings of passengers.
    Since 2004 over 130 agents of the United States Custom and 
Border Protection have been arrested, charged, or otherwise 
prosecuted on corruption charges. Allegations and convictions 
include alien and drug smuggling, money laundering, and 
conspiracy. The DHS acting inspector general, Mr. Charles 
Edwards states that Mexican drug cartels attempt to corrupt DHS 
employees and this impacts our National security. The inspector 
general also reports that since 2004 there has been a 38 
percent increase in the number of complaints against CPB 
employees.
    As recently as February 2012 an ICE agent pled guilty to 21 
counts of obstruction and corruption violations. These charges 
include illegally obtaining and disseminating Government 
documents to individuals with ties to drug trafficking 
organizations.
    There have also been allegations of convictions of ICE 
agents accepting thousands of dollars of bribes from immigrants 
seeking U.S. documentation. A former intelligence chief for 
U.S. Immigration and Customs Enforcement is accused of 
embezzling more than $180,000 stemming from a travel voucher 
fraud, a kickback scheme that defrauded the Government of more 
than $500,000. Four other ICE employees pled guilty to 
involvement in a scheme to defraud the Government.
    In the past year alone there have been numerous incidents 
of alleged misconduct on the part of TSA officers and 
employees. Thousands of dollars in cash and items have been 
reported stolen. Dozens of TSA officers were fired over 
improper luggage screening because they had allowed thousands 
of pieces of luggage onto flights without proper screening.
    TSA officers have allegedly taken bribes, allowing 
passengers expedited security checks. A number of additional 
allegations range from racially-charged statements and actions 
to inappropriate sexual harassment. A recent 22-count 
indictment alleges TSA employees took payments to provide drug 
couriers unfettered access through Los Angeles International 
Airport so that drugs could be smuggled into the United States.
    Executive branch employees are subject to Executive Orders 
issued by the President and ethics regulations issued by the 
U.S. Office of Government Ethics. Some agencies also have 
issued supplemental ethics regulations that apply to their 
employees. Even though there are stacks of Government manuals, 
training materials, and yearly briefings about ethics, these 
lapses continue. They not only waste taxpayer dollars, they are 
a threat to the security of our Nation.
    While the majority of bureaucratic personnel are law-
abiding, this hearing will examine the ethical policies and 
procedures of selected components of the Department of Homeland 
Security in an attempt to understand why these ethical lapses 
continue and what is to be done to prevent them from happening 
in the future.
    One final note; it is unfortunate the Department of 
Homeland Security in the face of such serious ethical mishaps 
refuses to provide witnesses from leadership to discuss these 
matters in the open before the American people. We requested 
the leadership from CBP, ICE, and TSA. However, only CBP 
recognized the importance of these issues.
    With that, I now recognize the Ranking Member of the 
subcommittee.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              may 17, 2012
    May 6-12 was Public Recognition Week. We set aside time each year 
to honor our public servants who keep us safe, care for our veterans, 
patrol our borders, and find cures for rare diseases.
    They make our country stronger and make a difference in the world.
    Most of our employees understand public service is a public trust.
    Each one has a responsibility to the United States Government and 
the citizens they all serve to place loyalty to the Constitution, laws, 
and ethical principles above private gain. And most public servants 
adhere to this trust.
    However, the Pew Research Center interviewed more than 3,000 adults 
about their views of our Government. Fifty-four percent said the 
Federal Government is ``mostly corrupt,'' while 31 percent said 
``mostly honest,'' and 11 percent said they did not know, or neither. 
The survey also showed just a third of Americans has a favorable 
opinion of the Federal Government, the lowest positive rating in 15 
years.
    A measure of dissatisfaction, these days, is to be expected. The 
country is in economic trouble and our leaders promise things they 
cannot deliver. What compounds this dissatisfaction are Government 
scandals.
    There have been many reports of Federal employees wasting taxpayer 
dollars, and in some cases committing crimes, which erodes the trust 
American people have in our Government.
    The General Services Administration employees spent over $800,000 
on a conference in Las Vegas. The Department of Homeland security spent 
nearly $1 billion on the Secure Border Initiative Network with little 
return on investment.
    We have also found criminal activity in our bureaucracies; Customs 
and Border Protection (CBP) personnel collaborating with drug 
smugglers, Immigration and Customs Enforcement (ICE) personnel filing 
fraudulent travel claims and Transportation Security Administration 
(TSA) personnel stealing personal belongings of passengers.
    Since 2004, over 130 agents of the U.S. Customs and Border 
Protection have been arrested, charged, or otherwise prosecuted on 
corruption charges. Allegations and convictions include alien and drug 
smuggling, money laundering, and conspiracy. The DHS Acting Inspector 
General, Dr. Charles Edwards, states Mexican drug cartels attempt to 
corrupt DHS employees and this impacts National security.
    The IG also reports that since 2004 there has been a 38% increase 
in the number of complaints against CBP employees.
    As recently as February 2012, an ICE agent pleaded guilty to 21 
counts charging obstruction and corruption violations. These charges 
included illegally obtaining and disseminating Government documents to 
individuals with ties to drug trafficking organizations.
    There have also been allegations and convictions of ICE agents 
accepting thousands of dollars in bribes from immigrants seeking U.S. 
documentation.
    A former intelligence chief for the U.S. Immigration and Customs 
Enforcement is accused of embezzling more than $180,000 stemming from a 
travel voucher fraud and a kickback scheme that defrauded the 
Government of more than $500,000.
    Four other ICE employees pleaded guilty to involvement in the 
scheme to defraud the Government.
    In the past year alone, there have been numerous incidents of 
alleged misconduct on the part of TSA Officers and employees. Thousands 
of dollars in cash and items have been reported stolen.
    Dozens of TSA Officers were fired over improper luggage screening 
because they allowed thousands of pieces of luggage onto flights 
without proper screening. TSA Officers have allegedly taken bribes 
allowing passengers expedited security checks. A number of additional 
allegations range from racially charged statements and actions to 
inappropriate sexual harassment.
    A recent 22-count indictment alleges TSA employees took payments to 
provide drug couriers unfettered access through Los Angeles 
International Airport so that drugs could be smuggled into the United 
States.
    Executive branch employees are subject to Executive Orders issued 
by the President and ethics regulations issued by the U.S. Office of 
Government Ethics.
    Some agencies also issue supplemental ethics regulations that apply 
to their employees. Even though there are stacks of Government manuals, 
training materials, and yearly briefings about ethics, lapses continue. 
They not only waste taxpayer dollars, they are a threat to the security 
of our Nation.
    While the majority of bureaucratic personnel are law-abiding, this 
hearing will examine the ethical policies and procedures of selected 
components of the Department of Homeland Security and attempt to 
understand why these ethical lapses continue, and what is being done to 
prevent them from happening.
    One final note; it is unfortunate the Department of Homeland 
Security, in the face of such serious ethical mishaps, refuses to 
provide witnesses from leadership to discuss these matters in the open 
before the American public. We requested the leadership from CBP, ICE, 
and TSA. However, only CBP recognized the importance of these issues.

    Mr. Keating. Thank you, Mr. Chairman. I want to thank you 
for holding today's hearing examining the ethical standards at 
the Department of Homeland Security.
    In the beginning I would like to point out there were over 
220,000 Department of Homeland Security employees who work 
every day to secure our homeland from dangerous threats and 
natural disasters. So, before I begin, I would like to thank 
them for their service.
    Unfortunately there are some among them that use their 
position of public trust for their own personal gain. In doing 
so they put the very Nation they were sworn to protect in 
harm's way.
    Since October 2004, 137 U.S. Customs and Border Protection, 
CBP, employees have been indicted or convicted of corruption-
related charges. Many coming in recent years as the Border 
Patrol doubled in size. During fiscal years 2010 and 2011 there 
were at least 33 incidents of corruption or mission-
compromising corruption at CBP.
    Furthermore, the U.S. Immigration and Customs Enforcement, 
ICE, Office of Professional Responsibility Investigations, they 
have had investigations and allegations of misconduct occurring 
at both CBP and ICE. The number of allegations pursued by that 
office is staggering.
    In 2012 alone, and this is only May, there have been a 
total of 101 corruption allegations involving ICE employees, 
and 362 from CBP. At the Transportation and Security 
Administration in 2011 there were three allegations involving 
corruption, 33 involving security and intelligence violations, 
and 210 alleged general misconducts.
    Although these allegations have not been proven, they are a 
testament to the fact that eliminating public corruption in the 
Department of Homeland Security is in dire need of improvement. 
I am therefore pleased that representatives from TSA, CBP, and 
ICE are testifying this morning, and look forward to hearing 
from them regarding the steps that they are taking to remedy 
this situation.
    Of course there are other incidents of corruption that we 
can point to. But what sets the situations at ICE, CBP, and TSA 
apart is the risk to National security. That is inherent in the 
public trust violations on the border and at our Nation's 
airports.
    I am troubled by allegations of turf battles within the 
Department and disagreements on who should be in charge. Recent 
efforts have been implemented to improve working relationships 
among DHS, OIG, CBP, Internal Affairs--in addition to CBP 
Internal Affairs--and ICE Office of Professional 
Responsibilities.
    I hope that new memoranda of understanding will truly cause 
each agency to understand the delayed investigations as a 
result of internal disputes will not only undermine efforts, 
they will also perpetuate this kind of misconduct. Again I look 
forward to hearing from the witnesses and I thank them for 
their participation in this important hearing.
    I yield back.
    [The statement of Ranking Member Keating follows:]
              Statement of Ranking Member William Keating
                              May 17, 2012
    There are over 220,000 Department of Homeland Security employees 
who work every day to secure our homeland from dangerous threats and 
natural disasters. I would like to thank them for their service.
    Unfortunately, there are some among them that use their position of 
public trust for their own personal gain. In doing so they put the very 
Nation they were sworn to protect in harm's way.
    Since October 2004, 137 U.S. Customs and Border Protection (CBP) 
employees have been indicted on or convicted of corruption-related 
charges--many coming in recent years as the Border Patrol doubled in 
size.
    And during fiscal years 2010 and 2011, there were at least 33 
incidents of corruption or mission compromising corruption at CBP.
    Furthermore the U.S. Immigration and Customs Enforcement (ICE) 
Office of Professional Responsibility investigates allegations of 
misconduct occurring at both CBP and ICE. The number of allegations 
pursued by that office is staggering.
    In 2012 alone, and this is only May, there have been a total of 101 
corruption allegations involving ICE employees and 362 from CBP.
    At the Transportation and Security Administration, in 2011, there 
were 3 allegations involving corruption, 33 involving security and 
intelligence violations, and 210 alleging general misconduct.
    Although these allegations have not been proven, they are a 
testament to the fact that eliminating public corruption at the 
Department of Homeland Security is in dire need of improvement.
    I am therefore pleased that representatives from TSA, CBP, and ICE 
are testifying this morning and look forward to hearing from them 
regarding steps that are being taken to remedy this situation.
    However, ICE, CBP and TSA are not unique in that serious 
allegations of public trust violations occur Department-wide.
    Likewise, DHS is not unique in that each and every Executive branch 
agency faces similar challenges and always have.
    However, what sets these situations apart is the risk to National 
security that is inherent in public trust violations on the border and 
at our Nation's airports.
    I am troubled by allegations of turf battles within the Department 
and disagreements on who should be in charge.
    Recent efforts have been implemented to improve working relations 
among the DHS OIG and CBP Internal Affairs in addition to CBP Internal 
Affairs and ICE Office of Professional Responsibility.
    I hope that new Memoranda of Understanding will truly cause each 
agency to understand that delayed investigations as a result of 
internal disputes will only undermine efforts and perpetuate 
misconduct.
    Again, I look forward to hearing from the witnesses and thank them 
for their participation in today's hearing.

    Mr. McCaul. Thank the Ranking Member. Other Members of the 
subcommittee are reminded opening statements may be submitted 
for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    Today's hearing will focus on the ethical standards in place at the 
Department of Homeland Security and allegations regarding employee 
misconduct at the U.S. Customs and Border Protection, Immigrations and 
Customs Enforcement, and the Transportation Security Administration. I 
would like to say at the outset that these three agencies form the 
backbone of our homeland security enterprise.
    Everyday CBP employees work tirelessly to secure our land and 
maritime borders at and between ports of entry. At ICE--the second-
largest Federal law enforcement agency--over 20,000 employees enforce 
Federal laws governing border control, customs, trade, and immigration. 
And everyday almost 2 million travelers at 450 airports across the 
United States depend on TSA employees to implement our multilayered 
approach to aviation security.
    While we discuss the small percentage that represents the bad 
apples in the barrel, I want to first acknowledge those that perform 
their mission with integrity and thank them for a job well done. 
However, as the saying goes, a chain is only as strong as its weakest 
link. It is imperative that the Department take seriously each and 
every allegation of employee misconduct.
    Department of Homeland Security employees come into contact with 
sensitive, sometimes classified, information and, in many instances, 
are National security interests literally lie in the palms of their 
hands. As a result, corruption or ethical misconduct occurring at the 
Department can have far greater National security implications than 
misconduct occurring at other Federal agencies. Therefore, the 
Department must have robust internal policies, standards, and 
procedures in place that address head-on employee corruption.
    The DHS Office of Inspector General is independent and has the 
primary authority within the Department for investigating allegations 
of criminal misconduct among Department employees. Yet, the OIG's 
budget declined in fiscal year 2011 and only received a slight increase 
in fiscal year 2012. Moreover, it is woefully understaffed given the 
size and magnitude of the Department's mission.
    To put this in perspective, the Department of Homeland Security has 
over 220,000 employees. The Department of Health and Human Services has 
65,000 employees, approximately one-third of the Department's 
workforce. Yet, the Department's OIG budget was less than half of the 
HHS OIG budget in fiscal year 2010 and 2011. The HHS OIG had a fiscal 
year 2010 budget of $312 million and a fiscal year 2011 budget of $342 
million. In comparison, the Department's OIG budget was $151 million in 
fiscal year 2010 and $150 million in fiscal year 2011.
    In light of the OIG being understaffed and underfunded, it comes as 
no surprise that there exists a backlog of cases needing further 
attention. Moreover, I am concerned about whether the numerous agencies 
responsible for investigating employee misconduct at the component 
level operate in a cooperative manner with the DHS OIG and with each 
other. Hopefully, the witnesses can shed light on this today.

    Mr. McCaul. We are pleased to have a very distinguished 
panel of witnesses before us here today on this very important 
topic.
    First, Mr. Charles Edwards is acting inspector general of 
the Department of Homeland Security. He is a frequent guest 
here before this subcommittee. He assumed this position in 
February 2011, served as deputy inspector general of the 
Department of Homeland Security, has over 20 years of 
experience in the Federal Government.
    Next we have Mr. Thomas Winkowski who is the acting deputy 
commissioner of the U.S. Customs and Border Protection. In this 
capacity Mr. Winkowski serves as chief operating officer 
overseeing the daily operations of CBP's 60,000 employees, and 
manages an operation--operating budget of $11.5 billion. He 
began work with the U.S. Customs Service in 1975 as a student. 
We thank you for your service, Mr. Winkowski.
    Next we have Mr. James Duncan who was appointed as 
assistant administrator of TSA's Office of Professional 
Responsibility in 2011. Mr. Duncan has more than 16 years of 
experience supervising and handling employee misconduct cases 
at OPR in the Department of Justice, my alma mater as well.
    Next Mr. Tim Moynihan is assistant director at the Office 
of Professional Responsibility at the U.S. Immigration and 
Customs Enforcement. He has more than 23 years of experience 
working for the U.S. Government, has been in his current 
position since 2009 where he focuses on workforce integrity, 
personnel screening, inspections, and security management.
    I want to thank all of you for being here today. With that 
the Chairman now recognizes Mr. Edwards for his testimony.

  STATEMENT OF CHARLES K. EDWARDS, ACTING INSPECTOR GENERAL, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Edwards. Good morning, Chairman McCaul, Ranking Member 
Keating, and distinguished Members of the subcommittee. Thank 
you for inviting me to testify today about ethical standards 
within the Department of Homeland Security.
    The vast majority of employees within DHS are dedicated 
civil servants focused on protecting the Nation. While a small 
percentage of employees have committed criminal acts and other 
gross misconduct, those few should not be used to draw 
conclusions about the character, integrity, or work ethic of 
the many.
    Over the past year DHS employees continue to demonstrate 
this ethic of service from responding to 99 Federally-declared 
disasters to unprecedented efforts to secure America's borders, 
and to advances in protecting the Nation's transportation 
networks and critical infrastructure, while those who violate 
their sworn duties, a few, even one corrupt agent or officer 
who allows harmful goods or people to enter the country puts 
the Nation at risk.
    Corruption within the ranks of DHS can have severe 
consequences. A corrupt DHS employee may accept a bribe for 
allowing what appear to be undocumented aliens into the United 
States, while unwittingly helping terrorists enter the country. 
Likewise, taking a bribe to allow the entry of what appears to 
be drug contraband could expose the Nation to weapons of mass 
destruction such as chemical or biological bombs.
    OIG has made investigating employee corruption a top 
priority. Both the personnel and organizational independence of 
OIG investigators, free to carry out their work without 
interference by agency officials, is essential to maintaining 
the public trust in not only the work of the OIG, but also in 
the DHS's workforce as a whole.
    The OIG investigates all allegations of corruption 
involving DHS employees or compromise of systems related to the 
security of our borders and transportation networks. For 
example, OIG received information about that a CBP officer was 
using his position at a large, urban airport to support an 
international drug trafficking organization. OIG joined a 
multi-agency investigation led by ICE OPR, which led to the 
dismantling of the entire drug trafficking organization and the 
arrest of multiple offenders, including the CBP officer.
    On at least 19 separate occasions the CBP officer had 
bypassed airport security using his own badge to smuggle money 
and weapons for the drug traffickers. In December 2010 he was 
convicted and sentenced to 8 years in prison.
    In another case, OIG conducted an investigation into 
allegation of theft involving a transportation security officer 
at the Orlando International Airport. The TSO had stolen more 
than 80 laptop computers, cellphones, and iPods, estimated at 
$80,000, from passenger luggage over the 3-year period from 
2008 to 2011.
    TSA terminated his employment in March 2011. In August 
2011, the TSO plead guilty to Federal charges of embezzlement 
and theft in connection with the investigation. In January 
2012, was sentenced to 24 months of probation. On May 1, 2012, 
the former acting director of intelligence of ICE plead guilty 
to defrauding the Government of more than $180,000 in a 3-year 
scheme involving fraudulent travel vouchers and time and 
attendance claims. Sentencing is scheduled for July 2012.
    He faces a likely prison sentence of 18 to 27 months. Three 
other ICE employees and a contractor employee previously plead 
guilty to charges related to the scheme, which cost ICE more 
than $600,000. These examples of intolerable behavior by a very 
small number of DHS employees, each represent a threat to our 
Nation's security and the public's perception of DHS and its 
mission. DHS employees are held to the highest standards of 
professional conduct and OIG is committed to aggressively 
pursuing those who violate DHS standards.
    Chairman McCaul, this concludes my prepared remarks. I 
would be happy to answer any questions that you or other 
Members may have. Thank you.
    [The statement of Mr. Edwards follows:]
                Prepared Statement of Charles K. Edwards
                              May 17, 2012
    Good morning Chairman McCaul, Ranking Member Keating, and 
distinguished Members of the subcommittee. I am Charles K. Edwards, 
Acting Inspector General of the Department of Homeland Security (DHS). 
Thank you for inviting me to testify today about ethical standards 
within the Department.
    First, let me state clearly that the vast majority of employees 
within DHS are dedicated civil servants focused on protecting the 
Nation. While a small percentage of employees have committed criminal 
acts and other egregious misconduct warranting stiff sanctions, 
including incarceration and removal from Federal employment, those few 
should not be used to draw conclusions about the character, integrity, 
or work ethic of the many. Over the past year, DHS employees continued 
to demonstrate this ethic of service--from a historic response to 99 
Federally-declared disasters, to unprecedented efforts to secure 
America's borders, to advances in protecting the Nation's 
transportation networks and critical infrastructure. These 
accomplishments would not be possible without workforce commitment and 
sacrifice, including long hours and time away from families, frequently 
in demanding work environments. I am personally grateful for the hard 
work and commitment to mission demonstrated daily by the DHS workforce.
                       scope of corruption issue
    As I have testified previously, the smuggling of people and goods 
across the Nation's borders is a large-scale business dominated by 
organized criminal enterprises. The Mexican drug cartels today are more 
sophisticated and dangerous than any other organized criminal groups in 
our law enforcement experience. As the United States has enhanced 
border security with successful technologies and increased staffing to 
disrupt smuggling routes and networks, drug trafficking organizations 
have become not only more violent and dangerous, but more clever as 
well. The drug trafficking organizations have turned to recruiting and 
corrupting DHS employees. The obvious targets of corruption are Border 
Patrol agents and Customs and Border Protection (CBP) officers who can 
facilitate and aid in smuggling; less obvious are those employees who 
can provide access to sensitive law enforcement and intelligence 
information, allowing the cartels to track investigative activity or 
vet their members against law enforcement databases.
    As demonstrated by investigations led by the Office of Inspector 
General (OIG), border corruption may take the form of cash bribes, 
sexual favors, and other gratuities in return for allowing contraband 
or undocumented aliens through primary inspection lanes or even 
protecting and escorting border crossings; leaking sensitive law 
enforcement information to persons under investigation and selling law 
enforcement intelligence to smugglers; and providing needed documents 
such as immigration papers. Border corruption impacts National 
security. A corrupt DHS employee may accept a bribe for allowing what 
appears to be simply undocumented aliens into the United States while 
unwittingly helping terrorists enter the country. Likewise, what seems 
to be drug contraband could be weapons of mass destruction, such as 
chemical or biological weapons or bomb-making material. While those who 
turn away from their sworn duties are few, even one corrupt agent or 
officer who allows harmful goods or people to enter the country puts 
the Nation at risk.
    OIG has made investigation of employee corruption a top priority, 
as we work to help secure the integrity of our immigration system, 
borders, ports of entry, and transportation systems. However, our 
investigations are complicated by the brutality the cartels use to 
control their organizations and coerce witnesses; and the 
sophistication and advanced technologies available to organizations 
with unlimited money. Drug trafficking organizations use their monetary 
resources to purchase and deploy sophisticated and military grade 
equipment and weapons to carry out their crimes, avoid detection, and 
evade law enforcement. Criminals use the same sovereign borders they 
are attempting to breach as a barrier to law enforcement efforts to 
conduct surveillance and collect evidence.
     roles and responsibilities within dhs for employee corruption
    Through the Inspector General Act of 1978 (IG Act), Congress 
established statutory Inspectors General, in part, in response to 
questions about integrity and accountability and failures of Government 
oversight. The IG Act charged Inspectors General, among other tasks, 
with preventing and detecting fraud and abuse in agency programs and 
activities; conducting investigations and audits; and recommending 
policies to promote efficiency, economy, and effectiveness. The 
position of Inspector General was strengthened by provisions in the IG 
Act creating independence from the officials responsible for programs 
and activities overseen, providing powers of investigation and 
subpoena, and mandating reporting not just to the agency head but to 
Congress.
    Inspectors General play a critical role in assuring transparent, 
honest, effective, and accountable Government. Both the personal and 
organizational independence of OIG investigators, free to carry out 
their work without interference by agency officials, is essential to 
maintaining the public trust in not only the work of the OIG, but also 
in the DHS workforce as a whole. The American public must have a 
fundamental trust that Government employees are held accountable for 
their crimes or serious misconduct by an independent fact finder.
    The DHS Management Directive (MD) 0810.1, The Office of Inspector 
General, implements the authorities of the IG Act within DHS. MD 0810.1 
plainly establishes OIG's right of first refusal to conduct 
investigations of criminal conduct by DHS employees, and the right to 
supervise any such investigations that are conducted by DHS internal 
affairs components. The MD requires that all allegations of criminal 
misconduct by DHS employees and certain other allegations received by 
the components be referred to the OIG immediately upon receipt of the 
allegations.
    For statistical and reporting purposes, the OIG classifies its 
investigative cases into four categories:
    (1) Employee Corruption.--Abuse of public office for private gain, 
        financial, or otherwise. Examples include:
      <bullet> bribery;
      <bullet> deliberate disclosure of classified, law enforcement, or 
            National security-related information;
      <bullet> theft;
      <bullet> espionage;
      <bullet> kickbacks; and
      <bullet> smuggling.
    (2) Civil Rights/Civil Liberties.--Violations of civil rights or 
        the deprivation of personal liberties by DHS employees while 
        acting under color of their official authority. Examples 
        include:
      <bullet> coerced sexual contact;
      <bullet> coercion of a statement from a witness or arrestee;
      <bullet> custodial death;
      <bullet> detainee/prisoner/suspect abuse;
      <bullet> profiling; and
      <bullet> excessive use of force.
    (3) Program Fraud/Financial Crimes.--Alleged activity targeting DHS 
        programs and/or financial systems, seeking to defraud the U.S. 
        Government of program tax dollars. Examples include:
      <bullet> contract fraud;
      <bullet> conflict of interest;
      <bullet> grant fraud;
      <bullet> misapplication of Government funds;
      <bullet> cost mischarging/defective pricing;
      <bullet> product substitution;
      <bullet> immigration program fraud; and
      <bullet> program benefits theft.
    (4) Miscellaneous.--Alleged violations of law or regulations with a 
        nexus to DHS programs, employees, or operations (not otherwise 
        classified as Corruption, Program Fraud/Financial Crimes or 
        Civil Rights/Civil Liberties) which may, or may not, be 
        criminal in nature, or which reflect unfavorably or 
        suspiciously upon the character and integrity of DHS, its 
        employees, or operations. Examples include:
      <bullet> child pornography;
      <bullet> computer fraud;
      <bullet> false statements;
      <bullet> harassment;
      <bullet> unauthorized personal use of DHS computers/networks;
      <bullet> unexplained affluence; and
      <bullet> contact with foreign governments/nationals.
    In this context, ``DHS employee'' means an individual, who at the 
time of the alleged offense, is appointed, contracted, or officially 
engaged under authority of law in the performance of a Federal function 
on behalf of DHS. This includes contractor employees, interns, Coast 
Guard military personnel (active and Reserve), Coast Guard 
Auxiliarists, and employees detailed to DHS from other Federal 
agencies.
    The IG Act and the Homeland Security Act of 2002, as amended, 
establish a clear line of authority for investigating allegations of 
criminal misconduct by DHS employees. The statutes vest investigative 
authority in the DHS OIG, with the Immigration and Customs Enforcement 
(ICE) Office of Professional Responsibility (OPR) having authority to 
investigate those allegations involving employees of ICE and CBP 
referred to it by OIG. The CBP Office of Internal Affairs (IA) 
investigates noncriminal allegations against CBP employees referred to 
it by ICE OPR.
    Component internal affairs units, such as CBP IA, have a crucial 
complementary role to OIG's criminal investigative function. For 
example, CBP IA focuses on preventive measures to ensure the integrity 
of the CBP workforce through pre-employment screening of applicants, 
including polygraph examinations; background investigations of 
employees; and integrity and security briefings that help employees 
recognize corruption signs and dangers. These preventive measures are 
critically important in fighting corruption and work hand in hand with 
OIG's criminal investigative activities.
    Congress has identified the OIG as the focal point for criminal 
investigations of employee misconduct. Within DHS, MD 0810.1 requires 
referral of all criminal allegations against DHS employees to OIG and 
prohibits any investigation, absent exigent circumstances, unless the 
OIG declines the case. DHS OIG operates a hotline for complaints which 
may be accessed through telephone, facsimile, electronic mail, or paper 
correspondence. In March 2004, ICE and CBP established the Joint Intake 
Center (JIC) responsible for receiving, documenting, and appropriately 
routing allegations of misconduct involving ICE and CBP employees. The 
JIC is staffed jointly by ICE OPR and CBP IA. Both the OIG hotline and 
the JIC provide DHS executive management with insight into the nature 
and volume of allegations made against employees as well as the results 
of investigations.
    In addition to working closely with internal affairs elements 
within DHS, we also work with ICE's Homeland Security Investigations 
(HSI) directorate. HSI investigates activities arising from the illegal 
movement of goods and people into, within, and out of the United 
States. HSI investigates human smuggling and smuggling of narcotics, 
weapons, and other contraband that typically form the predicate, or 
underlying, offense for most border corruption cases. Consequently, we 
work very closely with HSI and ICE OPR on many CBP employee corruption 
cases.
                      dhs oig recent case transfer
    It is the OIG Office of Investigations' policy to open all 
allegations of corruption of DHS employees or compromise of systems 
related to the security of our borders and transportation networks. OIG 
has a total of 219 full-time, permanent criminal investigators (GS-
1811s) deployed at 33 offices around the country, with a concentration 
of resources in the Southwest.
    The growth of the OIG workforce necessary to investigate 
allegations of criminal misconduct by DHS employees has not kept pace 
with the growth of the DHS employee population, now over 225,000 
strong, including Coast Guard military personnel. In fiscal year 2010, 
the OIG Office of Investigations increased by 10 authorized positions 
to address allegations of criminal wrongdoing across the entire DHS 
workforce. The Border Patrol alone increased to more than 20,700 agents 
in fiscal year 2010, double its size from 2004. With the increasing DHS 
workforce, by fiscal year 2011, the OIG Office of Investigations saw a 
38% increase from fiscal year 2004 in complaints against just CBP 
employees. The increased complaint volume led to increased case 
openings and the DHS OIG investigative staff was taxed beyond its 
capacity, even with the addition of CBP IA detailees under the 
provisions of the agreement executed between DHS OIG and CBP in August 
2011. The average per agent caseload is 12, while OIG's goal is an 
average caseload of 8.
    Last month, as part of DHS OIG's commitment to ensuring that all 
allegations of employee corruption are fully investigated, ICE Director 
Morton and I agreed that OIG would transfer approximately 370 OIG 
initiated investigations involving various criminal and administrative 
allegations against named employees of CBP and ICE to ICE for 
completion. Under the supervision of OIG, these cases will be 
investigated by ICE OPR which will work with investigators from CBP IA 
and HSI. This effort is part of OIG's effort to leverage all 
investigatory resources to ensure that corruption allegations are 
swiftly investigated. The actual transfer of case material will be done 
at the field office level and is expected to be completed no later than 
June 1, 2012.
    Because DHS OIG continues to have oversight of the component 
internal affairs elements, such as ICE OPR, OIG is requiring periodic 
reports from ICE OPR on the status of the transferred investigations 
until each investigation has been resolved or closed.
                 dhs oig investigative case statistics
    The charts below show investigative statistics related to 
indictments, arrests, and convictions arising out of OIG investigations 
involving ICE, CBP, and the Transportation Security Administration 
(TSA) for fiscal years 2008 through fiscal year 2012 to date. The 
numbers show a somewhat steady increase in convictions over this period 
which may be attributable to OIG's policy, adopted in 2009, of opening 
100% of corruption-related allegations.

                    ICE, CBP, AND TSA RELATED INDICTMENTS BY FISCAL YEAR AS OF APRIL 30, 2012
----------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal
                                                       Fiscal    Fiscal    Fiscal    Fiscal     Year
                                                        Year      Year      Year      Year      2012      Total
                                                        2008      2009      2010      2011     Year To
                                                                                                Date
----------------------------------------------------------------------------------------------------------------
CBP.................................................        46        52        54        60        20       232
ICE.................................................        36        16        28        30        20       130
TSA.................................................        19        12        10        21         3        65
                                                     -----------------------------------------------------------
      TOTAL.........................................       101        80        92       111        43       427
----------------------------------------------------------------------------------------------------------------


                      ICE, CBP, AND TSA RELATED ARRESTS BY FISCAL YEAR AS OF APRIL 30, 2012
----------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal
                                                       Fiscal    Fiscal    Fiscal    Fiscal     Year
                                                        Year      Year      Year      Year      2012      Total
                                                        2008      2009      2010      2011     Year To
                                                                                                Date
----------------------------------------------------------------------------------------------------------------
CBP.................................................        44        63        92        77        66       342
ICE.................................................        46        22        32        40        28       168
TSA.................................................        19        12        14        25        14        84
                                                     -----------------------------------------------------------
      TOTAL.........................................       109        97       138       142       108       594
----------------------------------------------------------------------------------------------------------------


                    ICE, CBP, AND TSA RELATED CONVICTIONS BY FISCAL YEAR AS OF APRIL 30, 2012
----------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal
                                                       Fiscal    Fiscal    Fiscal    Fiscal     Year
                                                        Year      Year      Year      Year      2012      Total
                                                        2008      2009      2010      2011     Year To
                                                                                                Date
----------------------------------------------------------------------------------------------------------------
CBP.................................................        33        51        58        38        33       213
ICE.................................................        20        21        27        29        14       111
TSA.................................................        12        10        15        21         8        66
                                                     -----------------------------------------------------------
      TOTAL.........................................        65        82       100        88        55       390
----------------------------------------------------------------------------------------------------------------

    Even with the case transfer to ICE discussed above, it remains the 
OIG Office of Investigations' policy to open all allegations of 
corruption of DHS employees or compromise of systems related to the 
security of our borders and transportation networks. The OIG continues 
to work the majority of allegations of the most serious criminal 
misconduct and corruption within DHS. For example, OIG developed 
information that a CBP Officer was using his position at a large urban 
airport to support an international drug trafficking organization. OIG 
initiated a multiagency Organized Crime Drug Enforcement Task Force 
investigation that ultimately led to the dismantling of the entire drug 
trafficking organization and the arrest of multiple offenders, 
including the CBP Officer.
    DHS OIG's investigation revealed that on at least 19 separate 
occasions, the CBP Officer bypassed airport security using his own 
airport security badge in order to smuggle money and weapons for the 
organization. In December 2010, he was convicted and sentenced to serve 
8 years' incarceration for money laundering, bulk cash smuggling, 
entering an aircraft area in violation of security procedures, carrying 
a weapon on an aircraft, fraud and related activity in connection with 
computers, and conspiracy to commit marriage fraud.
    The CBP Officer had been employed at CBP since 2003. Suspicions of 
corruption first surfaced in 2008. He did not provide any cooperation 
during the investigation and throughout the sentencing other than his 
admission of guilt.
    In another case, OIG conducted an investigation into allegations of 
theft involving a Transportation Security Officer (TSO) at the Orlando 
International Airport. The investigation revealed that, over a 3-year 
period from 2008 through 2011, the TSO had stolen more than 80 laptop 
computers, cell phones, and iPods, estimated at $80,000, from passenger 
luggage while ostensibly performing his duties at the airport. The TSO 
admitted to fencing the items to a middleman in Osceola County, FL. TSA 
terminated his employment in March 2011. In August 2011, the TSO 
pleaded guilty to Federal charges of embezzlement and theft in 
connection with the investigation and in January 2012 was sentenced to 
24 months probation. This case was initiated based on a tip from a 
coworker reported to the Orlando Police Department and was worked 
jointly with that Department.
    On May 1, 2012, the former Acting Director of Intelligence for ICE 
pled guilty to defrauding the Government of more than $180,000 in a 3-
year-long scheme involving fraudulent travel vouchers and time and 
attendance claims. Sentencing is scheduled for July 2012. He faces a 
likely sentence of 18 to 27 months in prison and a potential fine. 
Additionally, as part of his plea agreement, he will forfeit the money 
that he wrongfully obtained. Three other ICE employees and a contractor 
employee previously pled guilty to charges related to the scheme. The 
actions of the individuals cost ICE more than $600,000 in total.
    The former Acting Director of Intelligence personally submitted 
fraudulent travel vouchers and time and attendance claims. However, in 
addition, he took a share in kickbacks of fraudulent proceeds obtained 
by his subordinates who also submitted fraudulent travel vouchers. The 
case was investigated jointly by DHS OIG, ICE OPR, and the Federal 
Bureau of Investigation.
                               conclusion
    The above cases are examples of egregious behavior on the part of a 
very small number of DHS employees. These criminal acts represent a 
threat to our Nation's security and undermine the vast majority of 
honest and hard-working employees who strive to maintain the integrity 
of the Department. DHS employees are held to the highest standards of 
professional conduct. DHS OIG will aggressively pursue those who choose 
to ignore the standards.
    Chairman McCaul, this concludes my prepared remarks. I would be 
happy to answer any questions that you or the Members may have. Thank 
you.

    Mr. McCaul. Thank you, Mr. Edwards.
    The Chairman now recognizes Mr. Winkowski for his 
testimony.

 STATEMENT OF THOMAS S. WINKOWSKI, ACTING DEPUTY COMMISSIONER, 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Mr. Chairman, Ranking Member Keating, and 
distinguished Members of the subcommittee, it is a privilege to 
appear before you today to discuss U.S. Customs and Border 
Protections' ethical standards in our effort to combat 
corruption and misconduct within our workforce. I would like to 
begin by recognizing the dedication, bravery, and honor 
demonstrated by the overwhelming majority of CVP agents and 
officers who put their lives on the line each day to protect 
our Nation.
    As the largest uniformed law enforcement agency in the 
country, CBP deploys over 60,000 agents, officers, and mission 
support personnel in support of our critical mission of 
securing America's borders against threats while facilitating 
legitimate trade and travel. As we continue to see success in 
our efforts to secure our Nation's borders, CBP employees will 
continue to be targeted by criminal organizations and 
individuals that grow more desperate in their attempts to 
smuggle people and illegal contraband into this country.
    I am here today to discuss the vulnerability and the 
proactive steps we have taken to mitigate this threat. As you 
mentioned, Mr. Chairman, we recognize that public services is 
our--is a public trust. At the center of the CBP's core values, 
is integrity. It is of the utmost importance to all of our 
employees--that all of our employees are guided by the highest 
ethical and moral principles.
    I am proud that the overwhelming majority of the men and 
women in the CPB workforce serve with honor and integrity. 
While only a small fraction of the workforce have engaged in 
the illegal or unethical behavior since the inception of CBP, 
any such behavior disgraces the agency and betrays the trust of 
the American public. One instance of corruption within our 
workforce is one too many. Our commitment to integrity begins 
as soon as an employee applies for employment and continues 
throughout a CBP employee's career.
    We utilize multiple tools including improved applicant 
screening and exhaustive background investigations to ensure a 
thorough vetting of the men and women seeking employment with 
CBP. Since 2008, CBP has conducted pre-employment polygraph 
examinations on law enforcement applications, a critical 
important tool used to screen applicants before placing them on 
the front line. CBP is building the capacity to polygraph 100 
percent of all law enforcement applications in compliance with 
the mandates of the Anti-Border Corruption Act of 2010 and is 
on track to achieve this goal well in advance of the January 
2013 deadline.
    In addition to pre-employment prevention efforts, CBP has 
also strengthened its capacities and capabilities to detect and 
investigate corruption within our existing workforce. With 
approximately 200 experienced investigators Nation-wide, CBP 
internal affairs uses behavioral science, analytical research 
methods to flag indicators of potential workforce corruption 
and provide an intelligence-driven response.
    In conjunction with these efforts, we have developed the 
Analytical Management Systems Control officer--Office--called 
AMSCO, which analyzes data in the ports of entry environment to 
identify anomalies that may indicate potential misconduct. 
CBP's Office of Field Operations and Office of Border Patrol 
have also established integrity and ethics committees which 
provide strategic recommendations to combat and--to combat 
corruption and promote integrity in the agencies distinct 
operational environments. These efforts feed into CBP's 
Integrated Planning and Coordination Cell, or the IPCC. The 
IPCC, which includes representatives from our law enforcement 
partners, examines best practices and seeks to coordinate 
integrity-related initiatives within the agency.
    CBP recognizes that collaboration and information sharing 
is a critical factor in maintaining border integrity and 
effectively addressing allegations of corruption lodged against 
CBP employees. We have established MOUs with the OIG and ICE 
authorizing the co-location of agents in order to assist in 
investigations of CBP employees. We are also active 
participants in the 22 FBI lead border-crossing task forces 
Nation-wide. Mr. Chairman, Members of the subcommittee, 
integrity is essential to CBP's identity and effectiveness as 
guardians of the Nation's borders.
    I thank you and the Members of the subcommittee for the 
opportunity to appear today and make clear our core values and 
strategic approach. I look forward to answering any questions 
you may have.
    [The statement of Mr. Winkowski follows:]
               Prepared Statement of Thomas S. Winkowski
                              May 17, 2012
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, I am Thomas Winkowski, Acting Deputy Commissioner, 
U.S. Customs and Border Protection (CBP). It is a privilege and an 
honor to appear before you today to discuss CBP's efforts to address 
issues concerning corruption and misconduct in which CBP employees are 
involved. Ensuring the employees of CBP conduct themselves with 
integrity and in accordance with the ethical standards so critical to 
the positions of public trust they occupy is of the utmost importance 
to CBP.
    CBP has taken several preemptive and proactive steps to reinforce 
with all its employees the standards of conduct to which they must 
adhere both on and off duty. These efforts include recruiting 
applicants of the highest integrity and moral character to become 
members of the CBP workforce; developing and enhancing ethics and 
integrity training delivered on a recurring basis throughout all levels 
of the organization; implementing methodologies and utilizing existing 
information and technology to enhance early detection of potential 
employee misconduct; enhancing our internal affairs program which 
includes the use of polygraph examinations in the hiring process for 
CBP law enforcement applicants; establishing an investigative support 
capacity within the Office of Internal Affairs (IA); and reinforcing a 
unified message that honor comes first and all employees must maintain 
their personal and professional integrity as public servants.
                               background
    As America's frontline border agency, CBP is responsible for 
securing America's borders against threats, while facilitating legal 
travel and trade. To do this, CBP deploys a multi-layered, risk-based 
approach to enhance the security of our borders while facilitating the 
flow of lawful people and goods entering the United States. This 
layered approach reduces our reliance on any single point or program 
that has the potential to be compromised. It also extends our zone of 
security outward, ensuring our physical border is not the first or last 
line of defense, but is instead one of many. Ensuring the continued 
integrity of the CBP workforce is essential to the successful execution 
of the CBP mission.
    CBP is the largest law enforcement agency in the country. We deploy 
over 60,000 law enforcement officers and mission support personnel 
along the U.S. borders, at ports of entry and overseas on a continuous 
basis in support of our critical border security mission. Not only do 
our officers and agents serve under difficult circumstances and in 
dangerous environments, they do so in an environment where 
transnational criminal organizations attempt to exploit our workforce 
for criminal gains.
    After the creation of the Department of Homeland Security (DHS), 
CBP experienced a level of growth in personnel resources unprecedented 
in the history of U.S. law enforcement. Since the creation of CBP in 
March 2003, the U.S. Border Patrol more than doubled in size to a force 
today of 21,370 agents. During that time, CBP hired extraordinary men 
and women, many of whom continue to serve our country with great 
distinction and integrity every day. During the same period of time, 
CBP integrated the Office of Field Operations from the workforces of 
CBP's legacy agencies and grew the capabilities of the Office of Air 
and Marine to its current level.
    The overwhelming majority of the men and women who comprise the CBP 
workforce serve with honor and integrity, adhering to the high 
standards demanded of CBP personnel. Our high standards are reflected 
in the quality of the people we hire, as well as in how we train and 
evaluate our employees. Central to our standards is an absolute 
commitment to integrity. Without integrity we cannot accomplish the 
mission which the Nation has entrusted to us. Our commitment begins at 
the time of application for employment with CBP and continues 
throughout the careers of our officers, agents, and mission support 
personnel. It defines our relationship with one another and the Nation 
we serve.
    While the overwhelming majority serve with honor and integrity, a 
small minority have disgraced the agency and betrayed the trust of the 
American public and their fellow CBP employees by engaging in illegal 
and unethical behavior. Since October 1, 2004, 138 CBP employees have 
been arrested or indicted for acts of corruption including drug 
smuggling, alien smuggling, money laundering, and conspiracy. During 
this same period more than 2,000 CBP employees have been charged in 
other criminal misconduct, including off-duty behavior that serves to 
undermine the confidence of the public that we serve.
    CBP takes all allegations of misconduct and corruption very 
seriously and is addressing the issue of misconduct and corruption 
through a comprehensive strategy that integrates prevention, detection, 
and investigation capabilities to deter and, when necessary, rectify 
incidents of corruption and misconduct in the CBP workforce. No act of 
corruption or misconduct within our agency can or will be tolerated. 
CBP's leaders, including myself, are committed to creating and 
maintaining an organization in which all employees have the strength of 
character and support to reject all opportunities for corruption, in 
whatever form they may take, and to reveal them when discovered.
    The standards cited above form the basis of CBP policy with regard 
to integrity and are in complete alignment with the mandates of Public 
Law 111-376, the Anti-Border Corruption Act of 2010. This law requires 
that by January 2013, all CBP law enforcement applicants must receive a 
polygraph examination before being hired. The law further requires that 
CBP initiate all periodic personnel reinvestigations that were overdue 
for initiation and that Congress receive bi-annual reports on CBP's 
progress toward meeting these requirements for a period of 2 years. 
These requirements--background and periodic investigations as well as 
polygraph examinations--are consistent with, and form the basis of, a 
comprehensive workforce integrity plan.
    CBP's comprehensive integrity strategy includes improved initial 
screening of applicants, pre-employment polygraph examinations of law 
enforcement candidates, and an exhaustive background investigation that 
commences upon the initial selection of a prospective employee. Each 
tool is capable of identifying vulnerabilities that the other cannot, 
and in combination allow for a thorough vetting of the men and women 
seeking employment with, or employed by, CBP. Periodic reinvestigations 
of an employee's background are conducted every 5 years throughout an 
on-board employee's career and may identify emerging integrity and 
conduct concerns that have the potential to impact execution of the CBP 
mission.
    Currently, CBP is working diligently to increase its capacity to 
polygraph all applicants for law enforcement positions consistent with 
the statutory requirements. Polygraph exams, properly administered, can 
be a valuable tool to screen law enforcement applicants and to help 
ensure workforce integrity; and where possible, for use with on-board 
employees on a voluntary or exculpatory basis.
    Logistically, in an effort to increase efficiencies in the 
background and periodic reinvestigation processes, the IA is moving to 
a paperless environment. This effort will allow CBP to most efficiently 
and effectively leverage its financial and human resources.
    Based upon our progress to date, CBP is on track to fully meet the 
requirements of the Anti-Border Corruption Act, including 
implementation of 100 percent testing of all applicants for CBP law 
enforcement positions by January 2013. Additionally, CBP will complete 
its backlog of periodic reinvestigations by June 30, 2012 and will 
remain current with initiation of periodic reinvestigations that will 
continue to come due in future years.
                                training
    Throughout an employee's career, CBP provides training that focuses 
on integrity, ethics, and ethical decision making as part of an anti-
corruption continuum. When employees initially join CBP they receive 
training promoting workforce integrity as part of CBP's New Employee 
Orientation program. Newly-hired CBP law enforcement officers receive 
an expanded level of mandatory integrity and ethics instruction as part 
of the basic training curriculum.
    Recurring integrity training is also an integral part of the 
advanced and specialized training for CBP employees beyond their 
initial entry on duty. This training, combined with proper leadership, 
oversight, and management at all levels of the agency fosters a culture 
of personal accountability and integrity within CBP. It clearly 
communicates the standards of conduct with which all CBP employees must 
comply and identifies the consequences of engaging in inappropriate 
behavior. Most importantly, periodic in-service training equips CBP 
employees with the tools they need to recognize, report, and respond to 
integrity challenges they will encounter both on- and off-duty.
    Our focus on integrity is not limited to our non-supervisory 
personnel. CBP supervisory and leadership training programs such as 
Supervisory Leadership Training, Incumbent Supervisory Training, the 
Second Level Command Preparation, the CBP Leadership Institute, and the 
Department's Senior Executive Service Candidate Development Program 
incorporate classroom instruction and a series of practical exercises 
that prepare CBP leaders to guide and direct the workforce in a manner 
that promotes personal integrity and accountability through critical 
thinking and integrity-based, ethical decision making.
                     additional integrity programs
    In 2006, IA was tasked with promoting the integrity and security of 
the CBP workforce. Since then, IA has aggressively reconstituted and 
reinvigorated its internal investigative capability as part of a 
comprehensive strategy to counter the threat of workforce corruption. 
The IA staff now includes nearly 200 experienced investigators who 
investigate employees suspected of misconduct and assist in 
investigations of corruption, as well as personnel responsible for the 
prevention and detection of these acts within prospective and on-board 
employees.
    IA's comprehensive strategy integrates prevention, detection, and 
investigation capabilities to deter, identify, and respond to 
corruption and serious misconduct in the CBP workforce. The strategy 
includes background investigations as explained previously, as well as 
security clearances; employee misconduct investigations; physical, 
informational, industrial, internal, and operational security; and 
management inspections.
    The integrity strategy includes the application of behavioral 
science and analytical research methods designed to flag indicators of 
potential workforce corruption. These tools support an intelligence-
driven response to potential instances of corruption.
    In 2011, CBP convened the Integrity Integrated Planning and 
Coordination Committee (IPCC). This committee is a collaborative effort 
amongst internal CBP components and its external law enforcement 
partners. The Integrity IPCC allows each participating entity to openly 
discuss integrity-related issues and ideas and to share best practices 
among the members.
    In concert with IA's efforts, the Office of Field Operations (OFO) 
has taken significant steps to utilize its resources to identify 
operational data anomalies. Under the leadership of OFO's Analytical 
Management Systems Control Office (AMSCO), CBP law enforcement officers 
and agents use CBP's automated systems to analyze crossing, referral, 
and results data to identify anomalies that may be indicative of 
integrity issues. This analysis is especially important as CBP 
continues to implement new systems to process travelers and cargo 
electronically in a more efficient and effective manner. The Office of 
Border Patrol (OBP) also works in collaboration with AMSCO and IA to 
identify and mitigate any potential threats.
    When AMSCO identifies an anomaly in the manner in which a CBP 
employee is performing his duties, the office works collaboratively 
with IA to mitigate any potential threat to the CBP mission. As a 
result of the excellent work AMSCO is doing, CBP has already identified 
and corrected operational vulnerabilities that created potential 
opportunities for employee corruption. The efforts AMSCO has undertaken 
have also resulted in the development of new approaches, methodologies, 
and tools that, once fully tested, will be deployed at the ports of 
entry to identify performance deficiencies and counter potential acts 
of corruption as well as serve as an important training and 
instructional tool.
    The OFO also established the OFO Integrity Committee, composed of 
members from Headquarters Office of Field Operations, the Directors of 
Field Operations, Port Management, CBP IA, OBP, and Human Resources 
Management Labor and Employee Relations. The objectives of the OFO 
Integrity Committee include reviewing various types of misconduct and 
corruption cases regarding OFO employees that have resulted in arrests; 
analyzing misconduct and corruption trends to determine what actions 
OFO can take to eradicate those types of behavior; and assessing 
current OFO integrity initiatives. OFO has also established Integrity 
Officers within each of its 20 Field Offices. These officers act as 
liaisons to field personnel on integrity issues and are a conduit to 
headquarters for potential integrity concerns. Integrity Officers 
participate in local task forces, committees, and working groups, and 
collaborate with various Federal law enforcement agencies to provide 
assistance in operational inquiries, research, and analysis to assist 
in the detection and deterrence of corruption and misconduct.
    The U.S. Border Patrol has an Integrity Advisory Committee (IAC)--
comprised of selected field leadership ranging from first-line 
Supervisory Border Patrol Agents through members of the Senior 
Executive Service--to proactively combat the threat of corruption 
within its ranks. The IAC provides a strategic analysis of 
vulnerabilities to corruption that can exist due to the unique nature 
of the Border Patrol operating environment and provides recommendations 
to effectively address and reduce vulnerabilities. In addition, the 
Border Patrol has established ethics committees in the majority of its 
20 sectors--many of which have integrated with other CBP offices in a 
cooperative effort to build greater character and integrity within the 
workforce.
                       corruption investigations
    Beyond our proactive measures to prevent corruption before it 
begins, CBP is prepared to address allegations of employee corruption 
and misconduct in a timely and effective manner to ensure the integrity 
of the border. CBP maintains a cadre of experienced IA agents assigned 
to headquarters and 22 Internal Affairs field offices strategically 
located throughout the United States where the potential threat of 
workforce corruption is most acute. CBP coordinates its internal 
investigative activities with the DHS Office of Inspector General 
(OIG), U.S. Immigration and Customs Enforcement's Office of 
Professional Responsibility (ICE OPR), the Federal Bureau of 
Investigation (FBI), and numerous other Federal, State, local, and 
Tribal law enforcement authorities. Effective collaboration and 
information sharing among the Federal agencies that have a stake in 
border corruption is a critical factor in maintaining border integrity 
and security and effectively addressing allegations of corruption 
lodged against CBP employees.
    These efforts were enhanced in December 2010, when CBP and ICE 
executed a Memorandum of Understanding (MOU) that established protocols 
for IA agents and ICE OPR to collaborate in CBP employee-related 
misconduct and corruption investigations. The collaboration of CBP IA 
and ICE OPR agents in these CBP employee-related investigations 
provides a level of insight and dialogue not previously available to 
the CBP leadership team and has increased CBP's and ICE's combined 
ability to ensure the integrity of the border.
    In August 2011, CBP entered into a similar MOU with the DHS OIG and 
deployed approximately 14 CBP IA agents to OIG offices across the 
United States. Today, CBP IA agents are working side-by-side with DHS 
OIG agents in approximately 90 CBP employee-related investigations of 
alleged corruption and misconduct.
    CBP is striving to more effectively and expediently use existing 
administrative authorities to mitigate the threat caused by CBP 
employees accused of corruption during the course of an investigation. 
This may include reassignment to administrative duties, administrative 
leave, indefinite suspension, suspension of law enforcement 
authorities, or other appropriate actions. Where a preponderance of 
evidence indicates that a CBP employee is engaged in corruption or 
serious misconduct, CBP managers will take appropriate actions without 
undue delay to address the issue and where appropriate, remove the 
employee from his or her position. This forward-leaning approach 
provides CBP with the flexibility to address the threat posed by 
employee corruption and misconduct in a manner that reduces the impact 
on the agency, its mission, and its responsibilities to the American 
public.
                               conclusion
    Chairman McCaul and Ranking Member Keating, integrity is central to 
CBP's identity and effectiveness as guardian of the Nation's borders. 
It is the cornerstone of leadership and success not only for an 
organization such as CBP, but also for individuals. I thank you and the 
Members of the subcommittee for the opportunity to appear today and 
make clear our core values and strategic approach. I will be pleased to 
answer any questions that you might have.

    Mr. McCaul. Thank you, Mr. Winkowski.
    The Chairman now recognizes Mr. Duncan for his testimony.

 STATEMENT OF JAMES G. DUNCAN, ASSISTANT ADMINISTRATOR, OFFICE 
    OF PROFESSIONAL RESPONSIBILITY, TRANSPORTATION SECURITY 
        ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Duncan. Good morning, Chairman McCaul, Ranking Member 
Keating, and distinguished Members of the subcommittee. It is a 
privilege and an honor to appear before you today. Every day 
nearly 57,000 full-time TSA employees work to ensure the 
security of our Nation's vast transportation networks. TSA 
employs risk-based, intelligence-driven operations to prevent 
terrorist attacks and reduce the vulnerability of our 
transportation network to terrorism.
    Our goal is to maximize security while protecting privacy 
and facilitating the flow of legitimate travel and commerce 
through a multi-layered system of transportation security. 
TSA's workforce accomplishes its security mission by screening 
passengers and baggage at more than 450 airports in the United 
States. Every week, we vet 14 million passenger reservations 
and 13 million transportation workers against the terrorist 
watch list.
    Our efforts facilitate the secure air travel for 1.8 
million persons each day. Success of our mission depends upon 
the dedication and integrity of our workforce. Therefore, 
everything we do at TSA, from hiring, promotion, and training 
to inspections, investigations, and adjudications, is driven by 
our commitment to the highest ethical standards. Administrator 
Pistole has made clear that integrity, professionalism, and 
hard work are the bedrock principles for the entire TSA 
workforce.
    When a TSA employee fails to live up to our high standards, 
he or she violates the public trust, tarnishes the excellent 
work of the rest of our workforce, and damages TSA's reputation 
with the American people. For that reason, we hold all of our 
employees to the same high professional and ethical standards 
and we have zero tolerance for any kind of criminal activity in 
the workplace. TSA's Office of Human Capital publishes the 
policies that govern employee conduct. All employees are 
required to know our standards and to re-review them on an 
annual basis.
    To further assist, TSA's on-line training center provides 
training to all new or first-time TSA supervisors to give them 
the tools to identify, report, and prevent misconduct. When 
allegations or incidents of misconduct arise, they are 
investigated by TSA's Office of Inspection, an independent 
investigative arm of the agency that reports directly to the 
TSA administrator and deputy administrator. The Office of 
Inspection reviews allegations and reports them to the DHS 
Office of the Inspector General and conducts investigations if 
the OIG elects not to handle them themselves.
    The Office of Inspection also proactively conducts 
independent oversight inspections of operational programs, 
procedures, and policies, both in the field and at TSA 
headquarters. The inspections check on compliance and equally 
important, they provide employees an opportunity to raise 
allegations of misconduct in a confidential setting. To promote 
consistency, timeliness, and accountability in the disciplinary 
process, TSA has created an Office of Professional 
Responsibility, OPR. OPR adjudicates all allegations of 
misconduct involving senior-level officials and law enforcement 
personnel.
    OPR officials also review each reported investigation 
involving a TSA employee where the investigation is conducted 
by the Office of Inspector General. Working with TSA's Office 
of Human Capital, OPR is developing a unified database that 
will allow us to track all disciplinary matters throughout the 
agency. This is going to help us promote consistency and 
accountability. OPR has also created greater consistency and 
transparency in the entire TSA disciplinary system by creating 
a table of offenses and penalties. The table, which is 
available to all TSA employees, provides ranges of penalties 
for each type of offense and guides the decisions of officials 
both at OPR and in the field.
    As we strive to continue strengthening transportation 
security and improving the overall travel experience for all 
Americans, we always bear in mind that the success of our 
mission depends on the integrity of our workforce. The freedom 
to travel is a--is fundamental to our American way of life and 
TSA is fully committed to ensuring that everyone can do so 
securely. Thank you for the opportunity to appear before you 
today. I will be pleased to address any questions you may have.
    [The statement of Mr. Duncan follows:]
                 Prepared Statement of James G. Duncan
                              May 17, 2012
    Good morning Chairman McCaul, Ranking Member Keating, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the importance of ethical standards 
and professional standards of conduct in workforce issues related to 
the Transportation Security Administration (TSA).
             security demands diligence and accountability
    Both in the field and at headquarters, the nearly 57,000 full-time 
employees who comprise the TSA workforce are tasked daily with ensuring 
the security of people and commerce that flow through our Nation's vast 
transportation networks. TSA employs risk-based, intelligence-driven 
operations to prevent terrorist attacks and to reduce the vulnerability 
of the Nation's transportation system to terrorism. Our goal at all 
times is to maximize transportation security to stay ahead of evolving 
terrorist threats while protecting privacy and facilitating the flow of 
legitimate travel and commerce. TSA's security measures create a multi-
layered system of transportation security that mitigates risk.
    The TSA workforce occupies the front line in executing the agency's 
transportation security responsibilities in support of the Nation's 
counterterrorism efforts. These responsibilities include security 
screening of passengers and baggage at 450 airports in the United 
States that facilitate air travel for 1.8 million people per day; 
vetting more than 14 million passenger reservations and over 13 million 
transportation workers against the terrorist watch list each week; and 
conducting security regulation compliance inspections and enforcement 
activities at airports, for domestic and foreign air carriers, and for 
air cargo screening operations throughout the United States and at last 
point-of-departure locations internationally.
    The success of TSA's mission is ultimately dependent upon the 
dedication and professionalism of our workforce. While technology and 
instruction manuals support our efforts, it is our people that protect 
travelers. Public service is a public trust and demands adherence to 
the highest ethical and personal conduct standards. As public servants 
charged with protecting the Nation's vital transportation systems, we 
owe the American people nothing less. All aspects of our workforce 
regimen--hiring, promotion, retention, training, proactive compliance 
inspections, investigations, and adjudications--are driven by adherence 
to the highest ethical standards. TSA Administrator Pistole has made 
clear that integrity, professionalism, and hard work are bedrock 
principles and expectations that he has for the entire TSA workforce.
    Whenever a TSA employee fails to live up to TSA's high standards of 
conduct and violates that public trust, the security standards that all 
of our employees work so hard to establish and maintain are tarnished. 
In addition to diminishing the hard work of colleagues, the misconduct 
of any employee can damage TSA's reputation with the American people. 
TSA holds all of its employees to the highest professional and ethical 
standards and has a zero tolerance for criminal activity in the 
workplace. Accountability is an important aspect of our work, and TSA 
takes prompt and appropriate action with any employee who does not 
follow our procedures and engages in misconduct.
  a dedicated workforce adhering to professional standards of conduct
    TSA is fortunate to employ a diverse workforce. Approximately 23 
percent of our employees have served our Nation honorably in uniform 
through prior military experience. Our commitment to recruiting and 
hiring veterans continues, and TSA continues to work collaboratively 
with the Department of Defense, veterans groups, and other outside 
agencies towards that end. We are also proud of the dedication our 
workforce has to the mission. Overall attrition including full-time and 
part-time employees was 7.2 percent in fiscal year 2011. This is a 
significant decrease from 18 percent in fiscal year 2004. As TSA marks 
its 10th anniversary, the average Transportation Security Officer (TSO) 
has been with the agency nearly 6 years and more than half have spent 
more than 5 years on the job.
    With many members of the TSA workforce dealing directly with the 
public at airport checkpoints and in other transportation venues, and 
with a large number of employees occupying sensitive security 
positions, their conduct is held to the strictest standards. TSA's 
Office of Human Capital (OHC) provides the workforce with policies 
governing employee conduct, which state that conduct directly affects 
the accomplishment of employee duties and emphasizes the importance of 
public trust in the success of TSA's mission.
    TSA has outlined employee responsibilities and conduct in policy 
documents that address a broad range of employee matters, including 
behavior towards the public, use of alcohol and illegal drugs on- or 
off-duty, reporting requirements for arrests and criminal activities, 
and other fitness for duty requirements. The Employee Responsibilities 
and Conduct policy is communicated to all employees during employee 
orientation and all employees are required to read and certify that 
they have read and understand this policy. This policy requires all 
employees to seek advice and guidance as needed concerning their 
responsibilities through their supervisory chain, local Human Resources 
Specialist or ethics counselor. To further assist employees, TSA's 
Online Learning Center provides required training on ethics in the 
Federal Government for all new, first-time TSA supervisors to enable 
them to identify and report situations that may result in waste, fraud, 
or abuse, or the appearance of trying to influence a person or 
situation for personal or private gain.
           acting affirmatively to allegations of misconduct
    The overwhelming majority of TSA employees meet and exceed the 
highest ethical and professional standards of conduct. While 
allegations and incidents of misconduct arise from time to time, such 
cases are investigated by TSA's Office of Inspection (OOI), which 
reports directly to the TSA Administrator and Deputy Administrator. OOI 
reviews allegations and complaints made against TSA employees, reports 
all allegations to the DHS Office of the Inspector General (OIG), and 
conducts investigations when necessary. OOI conducts investigations in 
accordance with the standards published by the Council of the 
Inspectors General on Integrity and Efficiency, and consults with 
appropriate law enforcement or other Government officials regarding 
specific allegations or complaints. The Office prepares and issues a 
comprehensive report of investigation of criminal and/or administrative 
matters to appropriate TSA management officials. OOI also proactively 
conducts independent oversight inspections of operational programs, 
procedures, and policies at TSA headquarters and at our Nation's 
airports to check on compliance and afford employees an opportunity to 
discuss allegations of misconduct in a confidential setting.
             adjudicating instances of employee misconduct
    TSA has a streamlined disciplinary process in comparison to most 
other Federal agencies. Leveraging the flexible personnel authority 
that Congress provided under the Aviation and Transportation Security 
Act, TSA requires only a 7-day advance written notice period for 
disciplinary actions as compared with the 30 days advance written 
notice required under Title 5. More significantly, TSA's policy 
includes a one-step removal action, which allows TSA to remove 
immediately TSOs whose misconduct involves theft, illegal drug and on-
duty alcohol usage, and intentional serious security breaches. TSA's 
streamlined disciplinary process enables TSA to act quickly to ensure 
that employees are held accountable for any misconduct.
    To promote consistency, timeliness, and accountability in the 
disciplinary process, TSA created the Office of Professional 
Responsibility (OPR), which performs its responsibilities through a 
combination of direct adjudication and oversight. First, OPR 
adjudicates all allegations and misconduct involving employees and law 
enforcement personnel, reviews evidence, and determines whether to 
charge the employee with misconduct. Additionally, the OPR Appellate 
Board, a unit within OPR, adjudicates the appeals of adverse actions--
removals and suspensions of 15 days or more--taken against the 
uniformed workforce. Finally, OPR has visibility into all misconduct 
cases adjudicated in the field by officials outside of OPR. Working 
with TSA's OHC, OPR is helping to develop a database that will afford 
OPR and OHC insight into all disciplinary actions throughout the agency 
to drive consistency and fairness throughout the agency.
    OPR has promoted greater consistency and transparency in the entire 
TSA disciplinary system by creating and implementing a Table of 
Offenses and Penalties. The Table, which is available to all TSA 
employees, provides ranges of penalties for each type of offense and 
guides the decisions of officials both at OPR and in the field. OPR has 
also worked to promote greater efficiency and timeliness for 
disciplinary actions by introducing specific time lines for 
investigating and for adjudicating allegations of misconduct. These 
steps have resulted in integrity and efficiency built into the 
disciplinary system.
                               conclusion
    As we strive to continue strengthening transportation security and 
improving the overall travel experience for all Americans, we must 
always remember that our success is defined, in large part, by the 
conduct of our people. Whether it is for business or for pleasure, the 
freedom to travel from place to place is fundamental to our way of 
life, and to do so securely is a goal to which everyone at TSA is fully 
committed. Thank you for the opportunity to appear before you today. I 
am pleased to address any questions you may have.

    Mr. McCaul. Thank you, Mr. Duncan.
    Let me just say that while we certainly appreciate your 
presence here today, we did request a witness at a higher 
policy level, either Administrator Pistole or his deputy. I 
think it is important to have someone at the policy level to 
discuss these important issues and yet TSA failed to produce 
that witness.
    Next, the Chairman now recognizes Mr. Moynihan for his 
testimony.

STATEMENT OF TIMOTHY M. MOYNIHAN, ASSISTANT DIRECTOR, OFFICE OF 
     PROFESSIONAL RESPONSIBILITY, IMMIGRATION AND CUSTOMS 
          ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Moynihan. Good morning.
    Chairman McCaul, Ranking Member Keating, on behalf of 
Secretary Napolitano and Director Morton, thank you for the 
opportunity to discuss the ways in which ICE upholds DHS 
standards for integrity and professionalism.
    The overwhelming majority of ICE employees demonstrate the 
highest levels of integrity and perform their duties with honor 
every day. However, as in any large organization, isolated acts 
of employee misconduct do occur from time to time.
    My testimony today focuses on the mechanisms that are in 
place to ensure robust process for investigating allegations of 
employee misconduct and ensuring the integrity of the ICE 
mission.
    Since the creation of DHS, the ICE Office of Professional 
Responsibility has been delegated the authority to investigate 
allegations of criminal and administrative misconduct committed 
by ICE and CBP employees.
    Although we refer allegations of misconduct to the DHS 
Office of the Inspector General for review and potential 
acceptance, many are referred back to ICE OPR for appropriate 
investigative action.
    ICE has a comprehensive integrity strategy that integrates 
training, prevention, detection, and investigation capabilities 
to deter and respond to misconduct in the ICE workforce.
    This strategy involves collaboration with other law 
enforcement entities, a vigorous comprehensive screening 
process for new hires and education and training of existing 
employees.
    OPR is comprised of three operational divisions that play a 
major role in maintaining the highest level of ethical 
standards. The investigations division conducts criminal and 
administrative misconduct investigations through personnel 
maintained in 26 field offices Nation-wide and in Puerto Rico.
    OPR field offices are responsible for investigating 
allegations of criminal and serious administrative misconduct, 
reporting investigative results to the principle offices, 
conducting field-delivered integrity training to ICE employees, 
and providing integrity guidance to all offices within their 
areas of responsibility.
    The Inspections Division reviews ICE offices, programs, and 
detention facilities to ensure compliance with agency 
regulations, policies, and applicable detention standards in 
order to provide executive management with an independent 
review of the agency's organizational health and assess the 
effectiveness and efficiency of the overall ICE mission.
    Finally, the security division is responsible for the 
implementation of agency-wide security programs including 
personnel, physical, information, operational, and 
counterintelligence.
    Screening employees on the front end is an important step 
we take toward ensuring the integrity of our mission.
    ICE's vigorous screening process includes pre-employment 
security checks followed by full background investigations and 
periodic background investigations every 5 or 10 years.
    In addition, once employees are on board, we apply 
proactive training measures and oversight and management of 
employees at every level to ensure the integrity of the ICE 
workforce.
    In addition to the training provided by ICE OPR, the ICE 
Ethics Office provides training and guidance to all ICE 
employees with respect to the standards of the conduct and the 
Federal conflict of interest statutes.
    Collaboration among Federal agencies is critical to the 
mission of enhancing employee integrity.
    In 2010, ICE and CBP entered into a Memorandum of 
Understanding whereby CBP internal affairs investigators are 
assigned to OPR field offices to participate in all 
investigations of CBP employee criminal misconduct; thus 
enabling CBP management to make informed decisions when 
considering alternative administrative remedies.
    This collaboration has solidified ICE's commitment to 
providing CBP with complete and timely awareness of involvement 
and criminal investigations of CBP employees.
    Recently DHS OIG transferred approximately 370 cases to OPR 
regarding criminal and administrative allegations involving ICE 
and CBP employees. The cases regarding CBP employees would work 
in conjunction with CBP internal affairs and OPR will provide 
monthly status updates to DHS OIG.
    In summation, we have taken aggressive proactive steps 
toward ensuring that all allegations of misconduct within the 
agency are swiftly addressed. We do everything we can to uphold 
the agency's values.
    I speak for Director Morton when I say that ICE's 
leadership is proud of the integrity and professionalism of our 
workforce.
    Thank you again for the opportunity to appear before you 
today and for your continued support of ICE and its long--law 
enforcement mission.
    [The statement of Mr. Moynihan follows:]
               Prepared Statement of Timothy M. Moynihan
                              May 17, 2012
                              introduction
    Chairman McCaul, Ranking Member Keating and distinguished Members 
of the subcommittee: On behalf of Secretary Napolitano and Director 
Morton, thank you for the opportunity to appear before you today to 
discuss the ways in which U.S. Immigration and Customs Enforcement 
(ICE) upholds the U.S. Department of Homeland Security's (DHS) 
standards for integrity and professionalism. The ethical and integrity 
issues faced daily by ICE and our employees are neither straightforward 
nor easy to resolve; however, ICE provides priority attention to these 
issues and is heavily invested and effective in ensuring that our 
employees uphold the public's trust and confidence.
    ICE is the principal investigative agency with the largest team of 
criminal investigators in DHS. With more than 20,000 employees Nation-
wide and in 47 countries, ICE promotes homeland security and public 
safety through the criminal and civil enforcement of Federal laws 
governing border control, customs, trade, and immigration. ICE's 
primary priorities are to prevent terrorism and enhance security; 
protect the borders against illicit trade, travel, and finance; and 
protect the borders through smart and effective interior immigration 
enforcement.
    The overwhelming majority of ICE employees demonstrate the highest 
levels of integrity and perform their duties with honor every day. 
However, as in any other large organization, isolated acts of employee 
misconduct do occur from time to time. My testimony today will focus on 
the mechanisms put in place to ensure a robust process for 
investigating allegations of employee misconduct and ensuring the 
integrity of the ICE mission.
             the ice office of professional responsibility
    The ICE Office of Professional Responsibility (OPR) investigates 
allegations of criminal and administrative misconduct involving ICE and 
U.S. Customs and Border Protection (CBP) employees. OPR also contains 
an inspection branch that ensures ICE operates consistently with the 
high standards we promulgate to regulate our program offices and civil 
detention system. OPR is also responsible for the employee suitability 
and security clearance processes. We accomplish this mission by 
preparing comprehensive reports of investigation in a thorough and 
impartial manner for judicial or management action; conducting 
inspections and reviews of ICE offices and detention facilities to 
assess adherence to policies and applicable standards; and managing a 
layered security approach in order to protect ICE personnel, 
facilities, and information from criminal and/or terrorist 
organizations.
Roles and Responsibilities
    Since the creation of DHS, OPR has been delegated the authority to 
investigate allegations of criminal and administrative misconduct 
committed by employees of ICE and CBP. Although DHS policy requires ICE 
and all other component agencies to refer allegations of misconduct to 
the DHS Office of the Inspector General (OIG) for review and potential 
acceptance for investigation, many are referred back to OPR for 
appropriate investigative action. OPR is staffed by a workforce of 
criminal investigators who have an expert knowledge of immigration and 
customs laws, regulations, and procedures.
    In 2010, ICE and CBP entered into a Memorandum of Understanding 
(MOU) ensuring that the integrity of DHS employees remains critical to 
fulfilling the DHS mission. ICE and CBP have established a program 
whereby CBP Office of Internal Affairs investigators are assigned to 
OPR field offices to participate in the investigations of CBP employee 
criminal misconduct, thus enabling CBP management to make informed 
decisions when considering alternative administrative remedies. This 
collaboration was not always available prior to the MOU, and has 
solidified ICE's commitment to providing CBP with complete and timely 
awareness and involvement in criminal investigations of CBP employees.
    Recently, the DHS OIG transferred approximately 370 cases to OPR 
regarding criminal and administrative allegations involving ICE and CBP 
employees. The cases regarding CBP employees will be worked in 
conjunction with the CBP Office of Internal Affairs (IA). OPR will 
provide monthly status updates to the DHS OIG.
Composition of the Office of Professional Responsibility
    OPR comprises three operational divisions that play a major role in 
maintaining the highest level of ethical standards: Investigations, 
Inspections, and Security. OPR has a current staff of 517 full-time 
equivalent employees, including 265 criminal investigators.
    The Investigations Division conducts criminal and administrative 
employee misconduct investigations through personnel maintained in 26 
field offices across the United States and Puerto Rico, including an 
investigative unit based at ICE headquarters in Washington, DC. OPR 
field offices are responsible for investigating allegations of criminal 
and serious administrative misconduct; reporting investigative results 
to principal offices; conducting field-delivered integrity training to 
ICE employees; and providing integrity guidance to all offices within 
their areas of responsibility.
    The Inspections Division also evaluates and inspects ICE offices, 
programs, and detention facilities to ensure compliance with agency 
regulations and policies and applicable detention standards. This 
Division reviews ICE offices, programs, and processes in order to 
provide executive management with an independent review of the agency's 
organizational health and assess the effectiveness and efficiency of 
the overall ICE mission.
    The Security Division is responsible for the implementation of 
agency-wide security programs, including personnel, physical, 
information, operational, and counterintelligence.
    In fiscal year 2011, ICE and CBP's Joint Intake Center (JIC), which 
serves as the central clearinghouse for receiving, processing, and 
assigning allegations of misconduct involving ICE and CBP employees and 
contractors, received 10,374 unconfirmed allegations of misconduct and 
other reportable information. Most of the information reported to the 
JIC is less serious in nature and is best addressed by referring the 
matter to ICE and CBP management for review and appropriate action. As 
a result, OPR initiated over 1,030 investigations resulting in the 
criminal arrests of 16 ICE and CBP employees and 70 civilians, 86 
indictments and 55 convictions. OPR also completed 265 administrative 
investigations involving ICE employees. Some of the violations 
investigated included bribery, narcotics smuggling, theft of Government 
money/property, wire fraud, and the trafficking of counterfeit goods. 
The civilian arrests consisted largely of impersonation of DHS officers 
or agents and attempted bribery of DHS personnel. These arrests reflect 
the commitment ICE personnel have in maintaining the highest levels of 
integrity, and can be attributed to continual integrity awareness 
education and training.
                    comprehensive integrity strategy
    ICE has a comprehensive integrity strategy that integrates 
training, prevention, detection, and investigation capabilities to 
deter and respond to misconduct in the ICE workforce. This strategy 
involves collaboration with other law enforcement entities, a vigorous 
comprehensive screening process for new hires and education and 
training of employees. OPR's investigative strategy is a multi-layered 
approach utilizing the full capabilities of the three operational 
divisions previously mentioned.
Collaboration
    OPR collaborates with numerous other Federal, State, and local law 
enforcement authorities in criminal misconduct investigations. This 
collaboration among Federal agencies is critical to the mission of 
enhancing employee integrity.
    One noteworthy example of this collaboration is the corruption 
investigation of former CBP Officer (CBPO) Devon Samuels in Atlanta, 
Georgia. CBPO Samuels utilized his position of trust with CBP to bypass 
Transportation Security Administration security measures at the 
Hartsfield-Jackson Atlanta International Airport to smuggle narcotics, 
currency, and firearms for a major Jamaican drug trafficking 
organization. This OPR-led investigation was conducted in close 
coordination with various Federal and State law enforcement partners, 
including ICE's Homeland Security Investigations; the DHS OIG; CBP IA; 
the U.S. Drug Enforcement Administration; the Federal Bureau of 
Investigation (FBI); the Internal Revenue Service; the Bureau of 
Alcohol, Tobacco, Firearms, and Explosives; the U.S. Marshals Service; 
the U.S. Attorney's Office for the Northern District of Georgia; the 
DeKalb County [Georgia] Police Department; the Jamaica Constabulary 
Force; and the corporate security department for Delta Air Lines. 
Through a coordinated effort, the investigation resulted in a total of 
17 arrests, 18 indictments and the seizure of 15 firearms, 1 kilogram 
of cocaine, 314 pounds of marijuana, over 750,000 units of ecstasy, and 
over $226,400 in U.S. currency. CBPO Samuels pled guilty to conspiracy 
to commit money laundering and trafficking in firearms and was 
sentenced to 8 years' incarceration.
    Another significant example of collaboration is the investigation 
of former ICE Special Agent (SA) Jovana Deas. Former SA Deas utilized 
her position of trust to access law enforcement databases illegally, 
and shared the accessed information with members of a drug trafficking 
organization which included members of her family. The investigation 
was conducted by OPR and the FBI under the auspices of the Southern 
Arizona Border Corruption Task Force. Former SA Deas was arrested and 
on February 1, 2012, pled guilty to a 21-count indictment for misuse of 
a Government computer; false statements; conversion of public money, 
property, or records; obstruction of agency proceedings; and 
conspiracy. SA Deas's matter is pending sentencing.
Comprehensive Screening Process for New Hires
    ICE requires a vigorous screening process for new applicants. This 
includes pre-employment security checks, followed by full background 
investigations and periodic background investigations every 5 or 10 
years (depending on the sensitivity level of the position). OPR then 
administers a continuous evaluation program, a method of evaluating 
people after their initial investigation and adjudication. These 
evaluations depend on employees and supervisors to report misconduct as 
well as events that could potentially have a significant effect on an 
employee's personal finances, thereby potentially making them 
susceptible to committing acts of fraud.
Education and Training
    Once a new employee begins working for ICE, we apply proactive 
training measures and oversight and management of employees at every 
level to ensure the integrity of the ICE workforce. This professional 
development continues throughout the entire careers of all employees. 
ICE also developed a mandatory annual Integrity Awareness Program 
Training for all employees, which reinforces the standard that every 
employee is responsible for upholding the integrity of ICE. The course 
encompasses sections on integrity, professional conduct, and reporting 
misconduct.
    All new law enforcement agents and officers, as well as all new 
supervisors, receive integrity training at the ICE Academy. ICE OPR 
also conducts periodic integrity presentations to ICE programs which 
emphasize that actions and decisions by employees can often have 
implications that not only affect the individuals involved, but also 
DHS as a whole.
    In addition, ICE OPR also provides numerous information security-
related training courses/briefings to the ICE workforce. The subject 
matter of the training programs include counter-intelligence awareness, 
operational security, foreign travel threats, security awareness, and 
classified information protection. The ICE OPR-developed training is 
designed to provide the ICE workforce with information that will assist 
them in performing their duties effectively and in a safe manner. In 
addition to the training provided by ICE OPR, the ICE Ethics Office 
provides training and guidance to all ICE employees with respect to the 
standards of conduct and the Federal conflicts of interest statutes. 
All new employees must complete the ICE ethics orientation for new 
employees within 90 days of coming on board. In addition, all required 
financial disclosure filers receive mandatory ethics training annually.
    For years, ICE OPR has provided anti-corruption outreach training 
to international law enforcement partners. The training program informs 
our strategic allies about procedures used by OPR to combat corruption 
and other criminal misconduct. The program is coordinated through the 
ICE Office of International Affairs, the U.S. Department of State, and 
the World Customs Organization.
    As noted earlier, ICE has offices in 47 countries, in addition to 
our domestic offices. In furthering its efforts to promote integrity in 
the foreign environment, ICE OPR provides pre-deployment integrity 
presentations for ICE employees departing for long-term foreign 
assignments, as well as mandatory on-site integrity training when 
conducting inspections of foreign offices.
                               conclusion
    ICE takes employee misconduct extremely seriously, and we are 
heavily invested in addressing these issues to ensure that ICE upholds 
the public trust and conducts its mission with integrity and 
professionalism. Thank you again for the opportunity to testify today, 
and I would now be pleased to answer any questions.

    Mr. McCaul. Thank you, Mr. Moynihan.
    Let me also reiterate, we certainly appreciate you being 
here and your testimony. We requested that either Director 
Morton or someone at--or a deputy or a policy level to appear 
before this committee and unfortunately your agency failed to 
produce that witness.
    With that, the Chairman now recognizes himself for 5 
minutes for questioning.
    You know, I worked in the public integrity section in the 
Department of Justice. I serve now on the ethics committee and 
so I have always believed that the public service is a public 
trust. While the vast majority of your employees are honest and 
hard-working, unfortunately the actions of a few bad apples 
taint the entire organization.
    The purpose of this hearing is not to taint the overall 
organization at all, but rather it is to look at the specific 
abuses and determine how can we fix the problem.
    I will go with each agency. I will start with you, Mr. 
Winkowski.
    CBP, you know, the allegations of Border Patrol agents, CBP 
officers working with drug traffickers to facilitate their 
business is just unconscionable. You know the threat from a 
National security standpoint and you know that they are trying 
to infiltrate our organization.
    I want to first start and ask you about your polygraphs 
that you do conduct with employees prior to employment. If you 
can elaborate on what some of your findings have been in terms 
of these pre-employment screenings.
    Mr. Winkowski. Yes. Thank you very much, Mr. Chairman, for 
that question.
    As I mentioned in my oral interview, we have begun--we 
began doing polygraphs in 2008 and we have done about 10,000 
polygraphs, about 400 a month come January 2013 under the Anti-
Border Corruption Act that we mandated to do all law 
enforcement officers. We will meet that mandate of 2013. As a 
matter of a fact, we will meet that mandate sometime this 
summer.
    So this summer, we will have 100 percent of our law 
enforcement officers undergoing a polygraph prior to coming on 
board as a law enforcement officer.
    So of those 10,000 polygraphs that we have done, we have 
discovered a whole host of individuals that apply to be the 
Border Patrol agents or Customs and Border Protection officers 
and the polygraph was able to identify individuals that had a 
very, very questionable past.
    Let me just give you several examples, Mr. Chairman. We had 
a case where between 2002 and 2009 applicant smuggled several 
bundles of marijuana within the United States and was paid 
$200.
    On at least there occasions, the applicant personally 
unloaded duffle bags of drugs from vehicles and stored them at 
his--at this residence and the applicant also accepted $1,000 
in exchange for allowing vehicles loaded with marijuana to be 
stored at his home.
    So the polygraph was able to identify that and obviously 
the employee was not hired for a law enforcement position.
    In another example, in March 2009, the applicant and a 
friend became involved in transportation of cocaine and 
marijuana. The applicant's friend profited an unknown amount of 
the transportation of marijuana and he profited from $3,500 for 
the transportation of the cocaine.
    So we have these individuals that, in some cases I believe, 
their sole purpose of wanting to become a Customs and Border 
Protection officer or a Border Patrol officer is to infiltrate 
us. The way in which we have robust background process while we 
have AMSCO-type systems that I talked about in my oral reply 
and data mining and looking for anomalies, we really believe 
that the polygraph is going to be a real game changer for us.
    So we are ready for that. We have been doing polygraphs, 
but come this summer will undergo one.
    I think one of the things, also that both you and the 
Ranking Member has talked about is the National security 
positions. I view the CBPs and the Border Patrol agents as 
National security positions. As such, I think we need to take a 
different view of that position.
    So for example, while we are starting the polygraph prior 
to their employment and weeding out those individuals that are 
deceptive, our data indicates that really a--an officer goes on 
the other side at about 8.8 years into service.
    So the question becomes, while we have data mining and we 
are doing AMSCOs and doing--looking for anomalies and we have 
the periodic reinvestigations every 5 years, I think we need to 
be looking at polygraphs throughout the employee's career. I 
think that is very, very important and we will work with the 
Office of Personnel Management towards that end.
    But I couldn't agree more with what you said and Mr. 
Keating said about the National security positions.
    Mr. McCaul. Well, let me say I agree with you that it 
really is a National security issue and I think the cases that 
you discussed in terms of pre-employment screening with 
polygraphs demonstrates that they are trying to infiltrate our 
law enforcement.
    Mr. Winkowski. Yes.
    Mr. McCaul. There are other law enforcement agencies that 
require post-employment polygraphs and you and I talked about 
this yesterday; can you tell me some of the hurdles because, 
you know, as a former public corruption prosecutor, usually the 
corruption occurs after employment----
    Mr. Winkowski. Yes.
    Mr. McCaul [continuing]. After they have been down on the 
border or----
    Mr. Winkowski. Yes.
    Mr. McCaul [continuing]. Points of entry where they are 
then corrupted by organizations with high dollar amounts to 
infiltrate the United States with drugs and human trafficking.
    So can you elaborate on what would be the challenges and 
hurdles to require post-employment polygraph?
    Mr. Winkowski. One of the challenges we have is working 
through the hiring policies that we have in the Office of 
Personnel Management and I will make it very clear, we have not 
approached the Office of Personnel Management on this 
particular issue but we will do that.
    I have asked my staff to begin the process of identifying 
what those hurdles are. So, you know, the Anti-Border 
Corruption Act clearly gives us the authority on the pre-
employment. We need to work through internally, with our 
personnel offices as well as the Office of Personnel 
Management, to look at what it will take to do polygraphs from 
a standpoint of--at the time of the periodic reinvestigations 
and in between those periods of time, whether it is looking for 
reasonable suspicion or looking at more like a drug screening 
type of process where randomly we do polygraphs.
    I think we have a lot to learn from other agencies that 
employ polygraph on a more routine basis and we are going to 
undertake that endeavor.
    Mr. McCaul. Well, let me just say, I would like to work 
with you and CBP and I hope the Ranking Member would like to 
join me in this in terms of changing that policy. Certainly if 
any legislation is required to--making that change, I think 
this is vitally important. I will try to keep my time limited, 
but Mr. Duncan, turning to TSA, allegations and indictments of 
TSA employees stealing personal belongings of passengers, 
improper luggage screening, which, you know, after we saw the 
latest attempt out of Yemen to potentially smuggle a explosive 
device onto an airplane, again a National security issue.
    We can't afford to have corrupt TSA officers. So what is 
TSA doing to address that?
    Mr. Duncan. Senator, there are three aspects to TSA's 
efforts to prevent and detect the kind of corruption that the 
committee is justly concerned about. The first echoes what Mr. 
Winkowski has discussed in terms of background checks to make 
sure that we are not hiring people into TSA who are going to be 
problems. In the last 3 years, our background checks have 
actually disqualified more than 5,600 applications who were 
subjected to criminal history checks, financial checks, and 
other mechanisms to make sure that we are not bringing people 
in who have vulnerabilities.
    The second aspect really has to do with prevention. We have 
undertaken various prevention initiatives in the wake of 
scenarios such as Honolulu where we did determine that there 
was a large number of bags not being screened or subject to 
security. Some of the working groups that we have created in 
the wake of Honolulu have focused on identifying tools the 
local leadership can use to prevent and detect violations of 
our security protocols.
    I know there are some recommendations that they have come 
up with working in conjunction with our investigative office 
and those recommendations are focusing on metrics and on other 
kinds of reports that can be used by field leadership so that 
we can, you know, identify difficulties before they blossom 
into full-blown corruption.
    Mr. McCaul. Yes, let me--because my time is limited. A 22-
count indictment TSA employees took payments to provide drug 
couriers unfettered access through the Los Angeles 
International Airport so that drugs could be smuggled into the 
United States. That is outrageous and really unacceptable. I 
understand what you are trying to do pre-screening. As I 
understand it, you mentioned a system--a tracking system that 
you are implementing to--basically a systematic tracking system 
to look at these--this misconduct.
    You have 400 different offices out there. Yet it is not 
integrated into one system. I understand you are trying to 
develop that. When do you anticipate that that will be 
completed?
    Mr. Duncan. I don't have a specific time frame for you, 
sir. But I know as a result of the IG audit that has recently 
been released, that the TSA is working, not just on coming up 
with a workable single definition of security breaches, but to 
overhaul its reporting system so that security breaches are 
reported consistently. That they are validated and that the 
headquarters gets the information from all 450 airports so they 
can study it and come up with more comprehensive----
    Mr. McCaul. Again when--what is the time frame when this 
would be completed?
    Mr. Duncan. I will have to get back to you on that, sir.
    [The information follows:]

    The TSA integrated database is a case tracking system that 
currently supports the investigation and disciplinary action activities 
of the Office of Inspection (OOI), the Office of Professional 
Responsibility (OPR), and the Office of Human Capital, Employee 
Relations (ER). The integrated database is web-based, which permits 
authorized users to access the system TSA-wide. All disciplinary 
matters, whether handled by OPR at TSA Headquarters, or by ER users at 
more than 400 airports, are input into the system and are accessible to 
authorized users to promote consistency of adjudication.
    In addition, when each case is input, it is coded to the relevant 
section of the TSA Table of Offenses and Penalties, which will enable 
all adjudications to be tracked for consistency. At present, the 
integrated database is ``live'' and all cases are uploaded into it. The 
contractor with whom TSA is working--Lockheed Martin--has represented 
to TSA that it will incorporate the OOI Hotline into the system, and 
continue with system improvements and enhancements. Lockheed Martin 
should have the full functionality of an integrated reporting 
capability complete this fall.

    Mr. McCaul. Okay, I would appreciate that. Moving onto--to 
ICE. You know, accepting thousands of dollars in bribes to 
provide documentation, you know ties to drug trafficking 
organizations. This is exactly the kind of thing that 
terrorists want to exploit, getting documentation to get into 
the United States and attack the American people. Again this 
is--it is just really unacceptable. What are you doing within 
ICE to remedy this?
    Mr. Moynihan. Mr. Chairman we have a vigorous pre-
employment screening process and thorough background 
investigation to try to weed out those individuals, you know on 
the front end prior to employment. Subsequent to that, it was 
constant. All new employees go through ethics and integrity 
training. We have an annual requirement to take an integrity 
awareness program, which is a policy for all employees to kind 
of refresh our responsibilities and rules of conduct.
    All new supervisors attend--get extensive integrity 
training at the ICE Academy, as well as all law enforcement 
officers, a much more extensive integrity training. We put out 
constant guidance regarding the guidelines in reporting 
employee misconduct. Oftentimes information is received from a 
co-worker or colleague that sees that something is not--doesn't 
seem right or they have actual information.
    So we kind of--constantly going back and educating the 
workforce and making sure that they know what the standards of 
integrity, what the agency expects from them, and the proper 
ways to report that. I discussed briefly about--we have offices 
located Nation-wide. You know, upon receiving the allegation, 
we are required to refer it to the DHS OIG and either may be 
working the investigation collaboratively with them. But if 
they decide to not retain that for investigation, refer it back 
to our office and you know, we would address it as swiftly as 
possible.
    Mr. McCaul. In conclusion, we need to move on. I did look 
to some of your manuals. There really--doesn't seem to be any 
overarching policy within ICE and there is no specific ethics 
policy for ICE employees. It is very generic. I would ask that 
you maybe go back and look at that in terms of specific ethics 
policies that you could direct towards your employees. A lot of 
this is just commonsense though. You know as I said, a public 
service is a public trust.
    When you see that violated in these egregious examples, it 
is just unacceptable and again they are--overall though, the 
majority of employees are honest and hardworking. Do a great 
job every day. With that I now recognize the Ranking Member.
    Mr. Keating. Thank you, Mr. Chairman. A couple of comments 
I want to make first. First of all, taxpayers are spending 
enormous amounts of money to try and make sure that safety is 
ensured in their travel. American citizens are going through 
enormous personal intrusions themselves. Going through the 
gate, getting screened, getting scanned, having their 
belongings gone through. This is a very serious matter and I 
would think given the fact that our security and what the 
public puts into this, that at this hearing we would at least 
get the people that were requested from TSA and from ICE to 
show up.
    That to me says something about how seriously they are 
taking this issue, or how not seriously they are taking this 
issue. Now I want to be clear about that in the beginning. 
Second, this is just an old saw that we have had. It is before 
my time here as well. The 9/11 Commission has made it clear 
that one of the primary problems that has to be addressed is 
the issue of jurisdiction. This patchwork quilt of 
jurisdictions conflicting with each other, still is with us.
    It seems in every hearing we have, it is an underlying 
theme that we have and I think it is here again today. So it 
prompts a couple of questions I have. Mr. Edwards and Mr. 
Winkowski, last year in testimony before the Senate Committee 
on Homeland Security and Government Affairs Commissioner Bersin 
stated, and I quote, ``That there is more than tension and 
friction between CBP, IA, and DHS IOG.'' So between Customs and 
Border and Department of Homeland Security, there was 
``outright confrontation and an unacceptable situation.''
    The fact that CBP and OIG, both part of one Department of 
Homeland Security, had to enter into a Memorandum of 
Understanding in the first place for OIG to perform a function 
that statutorily belongs to that office, raises some grave 
concerns. Has the inclusion of CBP IA employee as required by 
that memorandum, improved that cooperation at all? Even though 
we had to do that to get there, has that improved the 
situation?
    Mr. Edwards. Thank you, Senator for the question. August 11 
of last year I signed the MOU with Commissioner Bersin. I can 
assure you that we have taken every step to work closely. In a 
number of my offices I have CBP IA agents working closely 
jointly with us, some cases. There is absolutely no turf 
battle. OIG, CBP, and ICE, we are all working together because 
this is not just a DHS problem, this is a problem for the 
entire Nation. We want to make sure that we address each 
investigation effectively and in a timely manner.
    Mr. Winkowski. Just a couple of comments. I agree with Mr. 
Edwards that the MOU I believe has done a good job of really 
laying out the path forward. As Mr. Moynihan had indicated, 
cases are being transferred from the IG over to ICE, and CBP is 
part of that process. So I think we have come a long way since 
former Commissioner Bersin's testimony.
    Mr. Keating. Just a couple of questions too that came to 
mind. If it is possible to give us a generalization. The bulk 
of the people that have been involved in this corruption, 
unethical conduct, what is their salary range for--I know, you 
know I just want to get a generalization. How much are these 
people getting paid? Most of them that are committing these 
things?
    Mr. Winkowski. I would say in the average of a base salary 
when you look at a Border Patrol agent or a CBP officer at the 
GS-12 level, which I think is about $75,000.00 a year. Then 
there is overtime associated with that. Especially when you 
look at the Southwest Border, they are some of the highest-
paying individuals down there in some of those communities.
    Mr. Keating. A question for Mr. Edwards? Your office's 
primary authority over the investigation instances of public 
corruption and employee misconduct within the Department of 
Homeland Security. However, you have the right of first refusal 
there as well. Now recently there has--that right has been 
heavily exercised. Your office has transferred hundreds of 
cases to CBP and ICE to handle. What contributed to that?
    Was it a result of a backlog that you did that? What 
contributed to that backlog if that is what led to this?
    Mr. Edwards. Sure. Thank you, sir. We have 2,360 open 
cases. I have 219 agents. Clearly the workload for each agent 
is more than 12 cases per agent. I have been working actively 
with CBP to have their agents detailed to our office to work 
the cases jointly. There is 38 percent increase in Border 
Patrol allegation corruption in the last several years. Border 
Patrol agents have doubled in size. OIG has not had the 
resources that he had requested.
    In short, I cannot keep piling up these cases. I need to 
act on it. This is a DHS problem that we have to address. So, 
under my supervision I have transferred 374 cases of named 
subjects to CBP--I mean ICE OPR, the CPB IA folks have detailed 
over there.
    I am not transferring any CRCL cases. It is employee 
corruption, program fraud, and miscellaneous cases; 301 of 
those cases are CPB cases and 73 of those cases are ICE cases. 
Still, because ICE OPR has an average right now of about 4\1/2\ 
cases per agent. So, clearly I am taking their resources and 
you know in some of my FEMA fraud cases an agent is carrying 22 
to 25 cases.
    So, clearly we need to--you know I cannot keep taking these 
cases long time to close. I need to address them quickly and 
bring resolution to these cases quickly. So, for this one time 
on the named subjects we took that effort.
    All of those 2,260 cases, 40 percent of them are unnamed 
subjects. We have an analysis group to vet those unnamed cases. 
But CBP also has those resources. So does ICE. So, our 
intention on this is to work jointly on those unnamed subjects 
and try to see if we can come up with some leads on that and 
then investigate.
    So, I think you know talking to John Morton and David Adler 
this is a joint effort. This one time I am fairly confident 
with the systems we have put in place. With this initiative we 
are going to address this problem effectively and as soon as 
possible.
    Mr. Keating. It is partially resulting in your budget 
situation----
    Mr. Edwards. Absolutely, sir.
    Mr. Keating [continuing]. And your--situation.
    Mr. Edwards. Absolutely, sir.
    Mr. Keating. All right. I want to be clear on that.
    With that, Mr. Chairman, I yield back.
    Mr. McCaul. I thank the Ranking Member. The gentlelady from 
New York is recognized.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank all 
of our panelists for coming in to share their insights with us 
this morning. I want to follow up and pick up on Mr. Keating's 
last question, and ask that both Mr. Edwards and Mr. Moynihan 
respond to this.
    From fiscal year 2010 to the present ICE OPR has received a 
total of 26,983 allegations of employee misconduct. Some 
involve corruption while others did not. In any event, this 
number is extremely high. In addition to investigating these 
matters I want to know, does ICE OPR work with ICE at large, 
and CBP, to incorporate lessons learned from these 
investigations into new standards and procedures?
    Given what you just stated, Mr. Edwards, having to deal 
with the budgetary constraints, you know how does this actually 
work out when ICE seems to have a whole host of their own 
investigations to conduct? I mean, I think if you add up all of 
the allegations together I don't even know how personnel is 
able to manage. But that is for you to answer.
    Mr. Edwards. Yes, ma'am. Thank you for your question.
    Even for OIG the complaints we have received in fiscal year 
2012 so far has been 10,438. Nonetheless, I think even before 
these investigations this is--there needs to be--and all the 
components are doing is the proactive effort in terms of the 
prescreening, the pre-employment screening, background 
investigation, integrity briefing, and ethics briefing; we do a 
number of those as well. Also let the employees know what to 
look for when there is potentially fraud happening. Then when 
the allegation comes in you know we go to the vetting process 
just like ICE does the same vetting. When a criminal case is 
there then we work jointly not only with ICE OPR, with ICE HSI, 
with FBI, with any number of partners jointly because you know 
the more aggressively we try to do this is going to get to a 
resolution sooner. So, looking at our caseload and what ICE has 
presently I think this effort that we have taken on is going to 
address these problems quickly.
    Mr. Moynihan. Thank you, ma'am.
    You know first I would like to--you know the Joint Intake 
Center is like the central clearinghouse for ICE and CBP for 
reporting allegations of misconduct as well as other reportable 
information. That is a collaborative effort. It actually sits 
in CBP's office space and it is staffed by both ICE and CBP 
Internal Affairs personnel. So, which is a great working 
relationship and a collaboration that has existed since the 
creation of DHS.
    The number represented as far as allegations, those are 
actually items that were reported to the Joint Intake Center 
so--and they involve less degrees of misconduct or items such 
as lost, missed things, stolen property--things that are not 
necessarily allegation-based.
    So, that number seems much larger then. It is things that 
we want to document and ensure there is a proper record of. But 
not all those 26,000 allegations are true allegations of 
misconduct and warrant investigation. I can get back to you as 
far as the specific number of what was.
    From our case inventory perspective, we have about 600 
cases in our inventory right now. Then in addition to the 374 
that Mr. Edwards will be transferring here shortly. But we are 
working closely with CBP Internal Affairs, full participation, 
we--during this transfer.
    Obviously it is a big lift. You know it is a large number 
of cases at one time. We set up teams together to triage, look 
at cases that have, you know, viable leads and most egregious 
allegations that are showing us the greatest vulnerability. We 
will do that as collaboratively in an effort to address them as 
quickly as possible and the most serious----
    Ms. Clarke. My question is what happens with those 
employees who are--who have alleged to do something? Do they 
remain in their posts? You know, how was that handled? Because 
you know certainly we are concerned about the public and their 
interactions with these individuals who have alleged to have 
some sort of misconduct, whatever that may be, and also their 
colleagues. Sometimes one bad apple can spoil a bunch. So, how 
is that managed?
    Mr. Edwards. Absolutely, ma'am. I also want to, before 
answering your question about the number of open cases, I just 
want to make it clear you know we have open cases and we have 
closed cases. But as you may know that a lot of cases that we 
have done all the investigations that we have done and then we 
are waiting for some judicial action. So, there is another 
category that really is not classified. We have within our 
systems working with our partners here we are going to classify 
another like a J-case. Many law enforcement agencies have the J 
type-of cases.
    While we are carrying on with this criminal investigation 
we also get the--we want to get the administrative portion of 
it working as well because a lot of times there is the U.S. 
attorney is not going to accept the criminal--as a criminal 
case. We want to make sure that we have done enough work on 
their administrative front end so the components can take quick 
administrative action. So, it is a dual-front end that we have 
worked with the components.
    Ms. Clarke. Do you want to add anything to that, Mr. 
Moynihan?
    Mr. Moynihan. Ma'am, I was just going to say that you know 
every case stands on its own merits. You know just the receipt 
of an allegation, depending on egregiousness or as the case 
develops and evidence is developed; you know we work closely 
with whether it is ICE management or CBP management to make a 
decision of whether that vulnerability of leaving that person 
in that particular position, the vulnerability is too great.
    We may need to put them onto administrative duties while 
the investigation continues or reassign them; or depending on 
the level of evidence and seriousness or the level or position 
of that individual, they may be put on administrative leave or 
things. But that would be--each case would be--would stand on 
its own and the facts and circumstances of that would be--would 
help us base that decision.
    Ms. Clarke. If you just indulge me for a moment, Mr. 
Chairman.
    Mr. Winkowski, I think that you looked as though you may 
have had something to add.
    Mr. Winkowski. Yes. I would just like to add a couple of 
issues here, a couple thoughts. I think you know it is very, 
very important that these allegations be worked quickly. So, we 
have a responsibility to exonerate people as well. When someone 
writes a--and I think the panelists would agree with me on 
that. We have a responsibility to do that.
    But we also have a responsibility if we have an individual 
that is under some kind of suspicion that we really need for 
that investigation to move quickly because that individual is 
still on the line, if you will, is still processing people. 
They are still processing cargo. Once we are notified by the 
investigation and the investigators that there is an issue, we 
will take that person off the line and put them in 
administrative duties as Mr. Moynihan said.
    Once an indictment takes place and that individual is put 
on what we call indefinite suspension and then it is dealt with 
through the court systems. Right now we have about 11 people 
that are on indefinite suspension. To the other point of your 
question, ma'am, was--and I think it is a really good point 
here--what do we do after that? So, we have the investigation. 
There is an indictment. There is a conviction. You know what do 
we do next?
    What we do in CBP is through our Office of Internal 
Affairs, we dissect that. We look at where the vulnerabilities 
are, what do we need to do from a standpoint of changing 
policies or changing processes so our management controls or 
internal controls so it doesn't happen again? So, it is a 
constant layer effect that we have implemented in CBP, which I 
think is very, very important from the standpoint of making 
inroads in this very, very important subject.
    Mr. McCaul. Let me just in closing associate myself with 
the Ranking Member's remarks. In terms of the seriousness of 
these charges and indictments and convictions, Federal law 
enforcement bribes taken by TSA to improperly screen luggage. 
You know first of all, stealing personal belongings as people 
go through these screeners all the time and scanners. Yet the 
idea that TSA officials are stealing personal property.
    But beyond that as a National security implications, the 
idea that a TSA officer would take a bribe to allow thousands 
of pieces of luggage to go through improperly screened, or to 
allow drug trafficking organizations to have unfettered access. 
This is precisely what the terrorists are looking for; ICE 
providing, you know, fraudulent documentation. You know, all 
these cases that we look at are--they are trying to get things 
through airports, improper screening, improper documentation, 
that is exactly the way they are trying to exploit, you know 
and then of course CBP, you know, taking bribes from drug 
cartel organizations.
    Given the seriousness of this, I do first want to say thank 
you to CBP for Mr. Winkowski, for you showing up at the policy 
level, but I do want to express my extreme disappointment that 
TSA and ICE, given these allegations--and not just allegations 
but proven fact--did not bring forth the policy-level witnesses 
that we requested. So it sends a signal to the Congress that 
either they are not taking it very seriously or these officials 
are just trying to hide from the American people.
    So I am not very happy with that. I, again, associate 
myself with the Ranking Member, with his remarks.
    With that, the committee stands adjourned.
    [Whereupon, at 10:37 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
